<html>
<title> - HOW EFFECTIVELY ARE STATE AND FEDERAL AGENCIES WORKING TOGETHER TO IMPLEMENT THE USE OF NEW DNA TECHNOLOGIES?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
  HOW EFFECTIVELY ARE STATE AND FEDERAL AGENCIES WORKING TOGETHER TO 
               IMPLEMENT THE USE OF NEW DNA TECHNOLOGIES?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2001

                               __________

                           Serial No. 107-57

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


78-050              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Tennessee                (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                 Earl Pierce, Professional Staff Member
                         Scott R. Fagan, Clerk
           David McMillen, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 12, 2001....................................     1
Statement of:
    Adams, Dwight E., Deputy Assistant Director, Laboratory 
      Division, Federal Bureau of Investigation; David Boyd, 
      Deputy Director, National Institute of Justice; Christopher 
      Asplen, executive director, National Commission on the 
      Future of DNA Evidence; Michael Lawlor, State 
      representative, Connecticut General Assembly, on behalf of 
      the National Conference of State Legislators; Keith 
      Coonrod, chair, Consortium of Forensic Science 
      Organizations, New York State Police Forensic Investigation 
      Center; Jamie Downs, director, chief medical examiner, 
      Alabama Department of Forensic Science; Robert S. Conley, 
      chairman, American Society of Crime Laboratory Directors/
      Laboratory Accreditation Board and Director of the Indiana 
      State Police Laboratory System; Kevin L. Lothridge, deputy 
      director, director of strategic development, National 
      Forensic Science Technology Center.........................    45
    Scheck, Barry, attorney, director, the innocence project, 
      Cardozo School of Law......................................    24
    Smith, Debbie, crime victim..................................    11
Letters, statements, etc., submitted for the record by:
    Adams, Dwight E., Deputy Assistant Director, Laboratory 
      Division, Federal Bureau of Investigation, prepared 
      statement of...............................................    49
    Asplen, Christopher, executive director, National Commission 
      on the Future of DNA Evidence:
        Information concerning DNA evidence......................    83
        Prepared statement of....................................    87
    Boyd, David, Deputy Director, National Institute of Justice, 
      prepared statement of......................................    62
    Conley, Robert S., chairman, American Society of Crime 
      Laboratory Directors/Laboratory Accreditation Board and 
      Director of the Indiana State Police Laboratory System, 
      prepared statement of......................................   119
    Coonrod, Keith, chair, Consortium of Forensic Science 
      Organizations, New York State Police Forensic Investigation 
      Center, prepared statement of..............................   108
    Downs, Jamie, director, chief medical examiner, Alabama 
      Department of Forensic Science, prepared statement of......   114
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Lawlor, Michael, State representative, Connecticut General 
      Assembly, on behalf of the National Conference of State 
      Legislators, prepared statement of.........................    97
    Lothridge, Kevin L., deputy director, director of strategic 
      development, National Forensic Science Technology Center, 
      prepared statement of......................................   123
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     8
    Scheck, Barry, attorney, director, the innocence project, 
      Cardozo School of Law, prepared statement of...............    31
    Smith, Debbie, crime victim, prepared statement of...........    16

 
  HOW EFFECTIVELY ARE STATE AND FEDERAL AGENCIES WORKING TOGETHER TO 
               IMPLEMENT THE USE OF NEW DNA TECHNOLOGIES?

                              ----------                              


                         TUESDAY, JUNE 12, 2001

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Putnam, Schakowsky, and 
Maloney.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, director of communications; Earl Pierce, 
professional staff member; Scott Fagan, committee assistant; 
Chris Barkley, staff assistant; Alex Hurowitz, Ryan Sullivan, 
and Fariha Khaliq, interns; Michelle Ash, minority counsel; 
David McMillen, minority professional staff member; and Jean 
Gosa, minority assistant clerk.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    The subject of today's hearing, DNA technology, 
demonstrates the challenges that societies have confronted 
throughout history. Scientific advancements have, for the most 
part, improved the human condition. Yet, the same advances have 
at times forced society to confront new challenges and perhaps 
new controls.
    Scientific advances, such as splitting the atom, for 
example, have led to the creation of the atomic bomb and 
nuclear power. Controls have been used. Some might even include 
the automobile on that list, and more controls have been used. 
The use of DNA technology is one of those issues.
    DNA technology is a powerful forensic tool for law 
enforcement. The technology was introduced into Great Britain 
by scientist A.J. Jeffreys in 1985. Since the FBI introduced 
this technology to the United States in 1988 it has been used 
in thousands of cases to help convict the guilty and exonerate 
the innocent. This is possible because each person's DNA is 
unique and can be profiled through a laboratory test.
    When a crime has been committed the criminal often leaves 
some form of DNA evidence at the crime scene. It may be a drop 
of blood, skin cells, saliva, or other body tissues. If a DNA 
profile obtained from such evidence is the same as a profile 
obtained from the suspect, it can be a strong indication that 
the suspect committed the crime. If the profiles are not the 
same, the suspect almost certainly did not commit the crime. In 
fact, according to the FBI, in about one of every four cases 
involving DNA, the initial suspect is exonerated.
    Recent DNA technology is more powerful and more sensitive 
than the original technology, and it is cheaper and quicker to 
test. Within a few days, a DNA profile can now be obtained from 
a blood stain the size of a pin head. In one case, a burglar 
leaving the scene, stopped in the kitchen for a snack on the 
way out. Forensic scientists obtained enough DNA from saliva 
left on the piece of cake that he had munched on to make a 
positive match. Another type of DNA can be extracted from the 
bones and strands of hair.
    The use of DNA evidence has become increasingly prevalent, 
in part because Federal, State, and local governments have 
worked together to develop and implement DNA analysis. The 
Federal Government has provided funding and guidelines through 
the DNA Identification Act of 1994 and subsequent legislation. 
The FBI has developed a coordinated set of local, State, and 
Federal data bases called the Combined DNA Index System 
[CODIS]. This system contains DNA profiles from convicted 
criminals, unresolved crimes, and missing persons. Every State 
now uses DNA evidence and requires that certain categories of 
criminals be profiled. Local police and prosecutors throughout 
the Nation are increasingly well-trained in how to use and how 
to obtain DNA evidence.
    Of course, DNA is much more than a forensic tool. It is 
also the basic chemical of inheritance. For that reason, as 
with other advances in technology, DNA evidence requires 
special cautions and safeguards. Although there are specific 
safeguards laid out in Federal and State laws, issues of 
privacy are of concern to many. In addition, there are concerns 
about timeliness.
    The greater use of DNA technology has overwhelmed many, if 
not most, of the Nation's forensic laboratories that analyze 
this evidence. The National Commission on the Future of DNA 
Evidence will testify before us that there are 750,000 
collected but unanalyzed aspects of DNA. And the Federal and 
State governments have allocated funding specifically to reduce 
these backlogs. Still, the backlogs remain, allowing criminals 
to continue preying upon innocent victims and allowing those 
who have been wrongly convicted of a crime to languish in 
prison. When these samples are not processed in a timely 
manner, justice is delayed and, in some cases, denied due to 
varying statutes of limitations.
    Today, we want to learn how effectively the Federal 
Government is helping alleviate this backlog and how the 
Federal assistance might be improved.
    Our first panel of witnesses will attest to the importance 
of timely DNA processing from their first-hand experience. In 
addition, there are several key witnesses from the beginning 
here. Mr. Barry Scheck has been on the frontline in defending 
the rights of those convicted of crimes to have access to post-
conviction DNA testing.
Following our first panel, we will hear from those who are 
involved in the analysis and collection of DNA evidence. They 
will discuss their successes and the challenges that lie ahead.
    We welcome our witnesses. We look forward to their 
testimony.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.001
    
    [GRAPHIC] [TIFF OMITTED] T8050.002
    
    Mr. Horn. I am now going to yield to the gentlewoman from 
New York. It was her idea to have us take a look at this, and 
we are indebted to her and her staff, who worked with our 
staff. I am delighted to have Mrs. Maloney give her opening 
statement.
    Mrs. Maloney. Thank you, Chairman Horn, for agreeing to 
have this hearing. Our ranking member, Jan Schakowsky, is on 
her way and will be here shortly.
    I think that DNA evidence is one of the most important 
crime-fighting technologies ever developed and I am delighted 
that we will have the opportunity to examine this issue today.
    I would also like to thank all of our witnesses for taking 
time from their busy schedules to come here today. We are 
blessed to have such a wealth of the knowledge available, and I 
look forward to hearing from each of you. I would especially 
like to mention two of my constituents who are here today. 
Barry Scheck is the founder of the Innocence Project. Under his 
leadership 88 people have been exonerated. He has worked 
selflessly to develop policies and standards to bring more 
fairness and justice to the system. Another important leader is 
Keith Kenneth Coonrod, Chair of the Consortium of Forensic 
Science Organizations. I thank you for all what you are doing, 
and particularly for your strong work in New York.
    Today we will hear plenty about how powerful DNA 
technologies have become. We will hear plenty about the magical 
powers of DNA; that DNA can be extracted from a drop of blood, 
that the chances of a solid DNA profile match being a 
coincidence can be one in a trillion.
    But I want to talk this morning about what this really 
means. DNA technologies means that rapists and other violent 
offenders will not get away with their terrible crimes. Even 
when there is absolutely nothing else to go on, a strand of 
hair, the bottom of a used stamp, or even DNA taken off of a 
victim's bruise can be used to catch and convict criminals.
    This means so much to so many victims of rape and violent 
crime all across this Nation. Just this last month in my 
district in New York City, police finally arrested a rapist who 
had assaulted a young NBC producer on her way home from work. 
Although police had been unable to locate her attacker for well 
over a year, DNA found on the victim following the attack 
turned out to match the DNA of a previously convicted burglary 
offender. With nothing else to go on, solid DNA evidence helped 
break the case. Without DNA, this criminal would still be on 
the streets. This is what this is all about--solving the crime, 
putting attackers and rapists behind bars.
    With that in mind, I have a few particular things that I 
would like to learn today, and I hope that our witnesses will 
be able to address them in their testimony or during the 
question and answer period.
    Last year, Congress passed the DNA Backlog Elimination Act, 
designed to help States and localities collect and process DNA 
samples taken from convicted offenders. I was proud that 
Congress passed that legislation. Expanding the DNA database 
means that more criminals will be caught when the DNA they 
leave at a crime scene is matched against the database. I would 
like to hear how this program is working. This was a critically 
important step, and I am eager to learn from our panel how much 
impact that legislation is having from your experience at the 
State and local level.
    But what I would also like to learn is how well evidence is 
being collected at the crime scene and from victims immediately 
following a crime. This is a forensic evidence collection kit. 
It contains all of the tools a professional needs to collect 
evidence from a rape victim. But many hospitals across the 
Nation do not have these kits. In many places where kits are 
not available, forensic evidence is collected with nothing more 
than a cotton swab and a plastic bag. In many communities 
professionals assigned the task of collecting evidence from 
rape victims have not been fully trained and opportunities to 
collect evidence are squandered. Also, when evidence is 
collected, many hospitals and communities lack the know-how or 
the resources to properly care for the forensic evidence they 
have already collected.
    In the end, this means that even the most talented forensic 
scientist may have little to work with. No matter how big the 
database is, we cannot fully recognize the benefits of the 
database without quality evidence.
    I am extremely interested in how we can ensure that 
evidence is collected and stored properly, and I hope that all 
of our witnesses will address these issues today. I would also 
like to hear from you any ideas of where you think we should go 
in Congress not only with the data collection backlog bill, but 
what are the next steps that we can take to help law 
enforcement officials and innocent persons in jail benefit from 
the scientific evidence in DNA.
    I thank all of our panel for coming. Thank you very much 
for your participation. And I see our ranking chairwoman, Jan 
Schakowsky, is here.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T8050.003

[GRAPHIC] [TIFF OMITTED] T8050.004

    Mr. Horn. I thank the gentlewoman from New York.
    We now have the ranking member of this subcommittee, Ms. 
Schakowsky, the gentlewoman from Illinois, with us. We look 
forward to your opening statement.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. And I want to thank Mrs. Maloney 
for her leadership on this issue and for requesting that our 
subcommittee review this important topic.
    Reviewing the use of new DNA technologies is an area that 
we can work together in a bipartisan fashion to ensure strong 
oversight. Democrats, Republicans, and Independents recognize 
the need for increased safeguards when it comes to the use of 
an individual's genetic makeup. DNA can be a useful identifier 
in many situations, such as in solving crimes, determining 
paternity, and identifying human remains.
    Today we will hear from a number of experts regarding how 
DNA technologies are being used by law enforcement agencies. In 
criminal cases, DNA can link or exclude a suspect to a crime 
scene. Similarly, it can link or exclude a weapon, such as a 
knife, to a crime scene. DNA can be collected from blood, 
semen, skin, saliva, tissue, tears, bone fragments, and other 
body fluids. DNA has even been collected from tears found on 
fragments of contact lenses. And useable DNA can now be 
extracted from very small samples, such as a drop of blood the 
size of a pin head.
    In order for DNA to be helpful to law enforcement officers, 
it must be collected, stored, and accessible for retrieval. 
Whether at a crime scene, in a hospital, in prison, or in a 
laboratory, DNA must be collected properly. Law enforcement 
officers, hospital staff and laboratory technicians must know 
how and what to collect and how to handle and transport it. 
They must ensure that the DNA samples are collected, the DNA 
samples are not contaminated, and the DNA samples from 
different persons are not mixed.
    Once the DNA is collected, it must be stored properly. 
Laboratories in only 35 States are adding DNA samples to the 
national database. We must push to have the other 15 States on 
board as soon as possible. In addition, within those 35 States 
that are participating hundreds of thousands of samples have 
yet to be analyzed. We must also push to have this backlog 
reduced. I was a strong supporter of the DNA Backlog 
Elimination Act that passed last year, and I support ongoing 
efforts to appropriately fund DNA testing.
    Accessibility to the DNA samples, once they are properly 
stored, is also important. Unless every laboratory shares its 
samples with the national database, law enforcement officers in 
one State cannot review samples taken in another State. In 
addition, convicted felons should have an opportunity to have 
their DNA double-checked against the crime scene. As we will 
hear from some of our witnesses today, there are prisoners on 
death row who are fighting to get their DNA tested in order to 
prove their innocence. Last year, after noting that the State 
had freed more people than it had put to death, Illinois 
Governor George Ryan placed a moratorium on the death penalty. 
Ryan explained that a commission was needed to study 13 death 
penalty cases that were overturned after prisoners were found 
innocent due to factors like new DNA evidence, recanted 
testimony, or insufficient evidence.
    Furthermore, I have cosponsored H.R. 912, the Innocence 
Protection Act of 2001, which authorizes a person convicted of 
a Federal crime to apply to the appropriate Federal court for 
DNA testing to prove innocence, and prohibits a State from 
denying an application for DNA testing made by a prisoner in 
State custody who is under sentence of death if specified 
conditions apply.
    Mr. Chairman, as DNA technologies continue to advance, we 
will need greater and greater coordination between our State, 
local, and Federal law enforcement agencies. I am hoping this 
hearing will help us pave the way to such coordination. Thank 
you.
    Mr. Horn. Thank you.
    Let me give you the procedure of panel I, and then we will 
do that for panel II again. On panel I, we have two expert 
witnesses. Deborah Smith is the crime victim that I mentioned 
earlier, and Barry Scheck is an attorney and the director of 
the innocence project of the Cardozo School of Law in New York. 
Some members have statements, we have read them all, and if you 
have submitted a written statement, it goes into the hearing 
record at this point and then you can summarize it. We would 
like you to do so in about 10 minutes because we have a lot of 
witnesses here today. But if you need to go beyond that time, 
we will. We want to make sure, following your fine testimony we 
have seen throughout panels I and II, we want to make sure you 
can have a discussion with people that might not agree with 
some of the way processing is going on. We just want to get it 
all out and on the record.
    This is an investigative committee. We will be asking each 
of the witnesses in a group to take the oath. So, with that, if 
you would raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that both witnesses have 
affirmed the oath.
    We will now proceed. Ms. Smith, we appreciate your coming 
because you are a crime victim and you know about these things 
more than anybody else would. So, if you would like to begin 
with your statement, we would certainly appreciate having it.

            STATEMENT OF DEBBIE SMITH, CRIME VICTIM

    Ms. Smith. 03-03-89, 9342-00 through 9342-05; Numbers of 
Identification 8905010; C89-1968--human identification. 180907; 
89-85-00-0234; written and spoken without a particular face 
impressed on the mind. 228-15-3839; 214515HA4; VA654195. Cold, 
impersonal, but necessary numbers of human identification 
revealing personal information about this faceless individual. 
Never before had there been so many ways to identify me, and 
yet I had never felt so lost. I resented being referred to as a 
number. The numbers made it seem as if I did not exist as a 
person; mechanical and unreal. Little did I know that it would 
be numbers--matching numbers that would breathe air into my 
lungs and allow me to truly live again.
    There is no way for you to understand how what is done in 
the DNA laboratories can mean the difference between life and 
death without taking you back to March 3, 1989. It is around 1 
on a Friday afternoon. Outside it is cold and gray and there is 
a light mist falling. I am in my home in a nice neighborhood in 
the city of Williamsburg, VA, which happens to be one of the 
safest cities in our country. My husband, who is a police 
lieutenant, was asleep upstairs after having been up for over 
30 hours. How could I have possibly been any safer? I had no 
way of knowing that within a matter of moments my life and the 
lives of those around me would be changed forever.
    It was a typical day in the life of any wife and mother. I 
was cleaning house, doing laundry, and preparing dessert for 
dinner with friends. In the midst of all of this I noticed that 
my dryer was not working properly, so I stepped outside to 
check the exhaust vent. When I returned, I decided to leave the 
back door unlocked, a door that is always locked. But I knew 
that I was going to return right away with the trash. But 
before I could return, within moments, a stranger entered that 
door and nearly destroyed and definitely changed my life 
forever.
    This masked stranger forcibly took me out of my home into a 
wooded area where he blindfolded, robbed, and repeatedly raped 
me. This crime that took less than 1 hour has deprived me of an 
innocent outlook on life and on my freedom. The sound of his 
voice rang through my ears as a deafening clamor--``Remember, I 
know where you live and I will come back if you tell anyone.''
    But I did tell someone. As soon as I was allowed to return 
home, I ran upstairs to where my husband was sleeping and I 
woke him with the words ``He got me, Rob, he got me.'' I begged 
him please don't call the police. I pleaded with him not to 
tell anyone because I feared this man would keep his promise 
and he would return and kill me. But the police officer in my 
husband knew that we could not let this crime go unreported. He 
also convinced me of the importance of going to the hospital, 
for he knew that we may need the evidence that would be 
collected from the rape kit. But all I wanted to do was to take 
a shower. I wanted to try to wash it all away.
    When we returned home from the hospital I thought I could 
begin to process what really happened. I had survived this 
terrible ordeal; I could put it behind me and go on. I did not 
know that the worst was yet to come.
    My favorite place, my home, seemed now nothing more than 
cold stone and wood. Nothing seemed familiar. The one place I 
had always felt comfortable and safe was now taunting me with 
memories. I would relive this nightmare day after day, 
remembering more and more of the details each day as the shock 
began to wear off. It was far from being over.
    For the first time in my life I could not find any reason 
to live. The love of my family and friends just was not enough 
because they could not erase the memories and they could not 
take away the pain. Even my faith in God seemed to be failing 
me, for there was no escaping the pain and no escaping the 
fear.
    Fear will not be satisfied until it has taken over your 
entire body and mind as a cancerous tumor. It cripples as 
arthritis, making every movement unbearable until it is finally 
no longer worth the pain. You become paralyzed. You feel 
trapped and helpless. It was always there. It was there in my 
waking hours as well as in my dreams, and on many occasions my 
husband would be awakened in the middle of the night to the 
sound of blood curdling screams from my nightmares.
    It was at this point that I began to realize that I could 
not, and I absolutely would not, live this way. Death seemed to 
be the only alternative, the only answer that would end this 
horrible nightmare that had become my life. In death there 
would be peace and there would be quiet, for I would no longer 
have to hear his voice in my ears, or feel his arms around my 
neck, and I would no longer have to see his face before my 
eyes. I knew that my mind could finally rest.
    I planned the suicide in my head over and over, but there 
was one problem that there seemed to be no solution for, and 
that was my husband and two children, because I worried who 
would find me and would they have to live in guilt feeling that 
they had somehow failed me. I wondered what this would do to 
them. And I thank God that it was my love for them that was 
stronger than my need to rid myself of my torment. I finally 
grabbed onto this thread and it became my reason to live.
    One of the most frequent comments that I heard after I was 
raped was ``At least you're alive.'' But I can still tell you 
today that while I was alive physically, inside I had died and 
I was completely dead. I cursed my attacker in fact for leaving 
me alive to live with the pain. This intruder never laid a 
physical hand on anyone in my family, but when he left he left 
each one of us a victim. He touched emotions in us that we had 
never known. Suddenly, there was rage in the eyes of my young 
son. My daughter was afraid to go from the porch to the 
driveway after dark. And each one of us, especially my husband, 
felt the awful pain of guilt for he felt as if he could protect 
the whole city of Williamsburg but was unable to protect his 
own wife in our own home. Our home, which had always been 
filled with love and laughter, had now become just a house full 
of bitterness, anger, fear, and guilt.
    But my family and I were not the only victims that day. 
Every person that touched my life or my family's life was to 
feel the effect of this crime. They too felt invaded and 
vulnerable. I could see the pain in their eyes because I was a 
constant reminder that rape can happen to anyone anywhere. They 
were angry for me and yet they felt helpless for there was 
nothing they could do. Our minds and our bodies ached for 
understanding and yet there was none to be found.
    I waited daily to hear the news that they had found this 
man that had changed our lives so drastically. I lived in 
constant fear of his return, hearing his words over and over in 
my head ``I know where you live and I will come back and I will 
kill you.'' The Williamsburg Police Department followed every 
lead and every clue only to come up empty handed. Even in my 
own mind I began to doubt myself. I wondered if it really 
happened or was it just some terrible nightmare. Do they 
believe me, or are they doubting my words just as I was 
doubting myself? But in my heart I knew that it was not just 
some nightmare that was going to fade with time, but that it 
would be one that I would have to live with forever.
    I craved peace of mind and I did everything I could to 
attain it. We put an alarm system in our home, including panic 
buttons throughout the house as well as one that I could wear 
around my neck, the privacy fence was put up around our 
backyard, and motion detectors installed. At one point, I even 
decided to carry a gun. There just did not seem to be any way 
to attain this peace and rest that my mind and my body craved 
for so long. I would have to suffer daily with the memory of a 
man who was in my life for such a short span of time. He may 
never have to pay for his crime, but I was going to have to pay 
for it forever. For 6\1/2\ years I simply existed, trying to go 
on and live life as normal. I can tell you that it is only by 
the grace of God that I am still here today.
    VA 122015Y; 01-14-91--just more numbers--9117682; 07-24-
95--but these numbers bring with them a life-giving force and 
renewed hope--4183; 07-26-95. As George Lee sat at his computer 
in the Virginia Division of Forensic Science on July 24, 1995, 
on what probably seemed to him just a normal day at the lab, he 
had absolutely no way of knowing what effect his work that day 
would have on my life and those around me. On this day, Mr. Lee 
entered a prisoner's blood sample into the computer and it 
automatically began its cross-check against previously entered 
samples, some of which were obtained from the rape kits. To his 
joy and surprise he received a cold hit, something that was 
fairly rare at that time. This information was passed onto the 
Williamsburg Police Department, they in turned passed the 
information onto the shift lieutenant working that day, who 
just happened to be my husband.
    On that day, July 26, 1995, my husband walked into our 
living room and handed me a composite that he had carried with 
him ever since the incident and told me that I could throw it 
away because we were not going to need it anymore. Not only had 
they identified my rapist, but he had been in prison for 
another crime and had been there since 6 months after I was 
attacked. For the first time in 6\1/2\ years I could feel 
myself breath. I felt validated. There was a real name and a 
real face to go with the nightmare that I had lived. And 
everyone would know that I was telling the truth, that it was 
real.
    Finally, I could quit looking over my shoulder. No longer 
did I have to drive around in circles hoping that a neighbor 
would drive by so that I could get the courage to get out of my 
car to go into our own home after dark if no one else was home. 
Unfamiliar noises no longer left me panic-stricken, and I no 
longer had to scan the faces in the crowd to see if maybe he 
was following me. And suicide was no longer a consideration. 
And finally, my husband is grateful that I don't wake him up as 
often in the middle of the night with ear-piercing screams.
    Within myself the healing had begun and peace had come at 
last.
    Because of that rape kit, this man is off the streets for 
good. The jury gave Norman Jimerson two life sentences plus 25 
years without parole.
    I sit here before you today as an example of the importance 
of the evidence obtained from the rape kit. Because of my 
husband insisting that I go to the hospital, I did not miss my 
children's college graduation, I was present to watch my 
daughter walk down the aisle in November, and just this past 
Saturday I watched as my son exchanged vows with his new bride.
    I am not a public speaker by nature, and it takes every 
ounce of courage that I can muster to be here, but I can tell 
you that I count it both a privilege and an honor to be allowed 
this small part in the furtherance of this cause. Any time a 
great tool such as this is available and not used, I think that 
our society commits a crime against its members. We must use 
the crime-solving capabilities of this powerful tool to its 
fullest, and I pray that all of you will consider its 
importance to me and thousands of other victims like me. Thank 
you.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.005
    
    [GRAPHIC] [TIFF OMITTED] T8050.006
    
    [GRAPHIC] [TIFF OMITTED] T8050.007
    
    [GRAPHIC] [TIFF OMITTED] T8050.008
    
    [GRAPHIC] [TIFF OMITTED] T8050.009
    
    [GRAPHIC] [TIFF OMITTED] T8050.010
    
    Mr. Horn. We thank you. It is riveting testimony, and we 
thank you for taking the time to come here and share that 
experience, no matter how horrible it is. But women all over 
America have had just your experience, and obviously you speak 
well for the thousands of women that have gone through this. We 
thank you for your coming to share that with us. Hopefully, 
your testimony will get people to think more about these things 
and make sure that we get the type of DNA and everything else 
that can be dealt with to get these predators and put them away 
in prison forever. So, thank you very much.
    Would any of you have questions right now?
    Mrs. Maloney. I have a question, Mr. Chairman.
    Mr. Horn. The gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. Just on behalf of women and girls all over 
the country, I would say the world, I want to thank you for 
your incredible testimony. It is very brave and very important 
that you are here today. Your testimony put meaning behind the 
numbers. It put meaning behind the numbers to show the human 
aspect, and that is tremendously important. I know that many of 
us will be even more inspired to develop every single tool we 
can to further protect people.
    One of your statements was very important. You said that 
every time a rape kit is available and not used, society 
commits a crime. And yet, I believe that these rape kits are 
not in every hospital, nor are they uniform. And I would like 
to ask you, do you think every hospital and medical center 
should have one of these rape kits? And do you think there 
should be uniform rape kits that would help our police officers 
solve the crimes?
    Ms. Smith. Absolutely. Because without the rape kit we 
would have never been able to have the evidence that we needed 
to convict Norman Jimerson, because that was basically all we 
had was the evidence from that rape kit. I would think that if 
we do it uniformly, then it would become common knowledge of 
how to use it and when the different labs get that then they 
would know exactly what they were looking at as opposed to a 
different kit from place to place.
    Mrs. Maloney. Thank you for your testimony.
    Mr. Horn. On the rape kit usage, in your experience, was 
that done in a hospital with nurses or doctors?
    Ms. Smith. Unfortunately, mine was done in the hospital 
with a doctor. But our hospital has now changed that in that we 
have SANE nurses in place for which I am very grateful. That is 
a very important program to have in place in every single 
hospital.
    Mr. Horn. I am thinking of paramedics also and evidence. Do 
you think these rape kits should be used by paramedics?
    Ms. Smith. Only if they are trained properly to use it, 
because for a rape victim that is one of the first things that 
she has to go through and the first contact that a rape victim 
has certainly has a great impact on how she is going to process 
what has just happened to her. It can be a totally humiliating 
process to go through, and if it is done wrong--and I believe 
that is why a lot of victims do not come forward now is because 
we do not have the proper programs in place for that. So, I 
would say that only a very trained paramedic should be given 
that.
    Mr. Horn. And certainly the doctors in the hospital usually 
would be those on emergency duty. I think that the staffs on 
both sides should take a look at some of these hospitals and 
are they educated on how to best utilize this, because it is 
such a trauma that you are going through when you get rolled 
into that emergency ward. I would just like to know if ever in 
medical school they teach people about these things, because 
they are frightening.
    The predator that went after you, what has happened?
    Ms. Smith. He is in the Red Onion Prison and he has been 
given two life sentences plus 25 years with absolutely no 
chance of parole. He does have an appeal right now but it does 
not look like there is any chance that anything will come of 
that.
    Mr. Horn. Well, it is good to know that he is behind bars, 
that is for sure.
    The gentlewoman from Illinois?
    Ms. Schakowsky. Thank you so much for your testimony. I 
know it took a lot to do that, but, hopefully, it will result 
in having contributed a lot to changing things. I wanted to ask 
you, you said that all you wanted to do was take a shower and 
not really forget about it----
    Ms. Smith. Wash.
    Ms. Schakowsky. Yes, wash it away. And your husband 
convinced you that it was important. I am sure that is the 
impulse of most rape victims. I am wondering if, as painful as 
it might be, we need to do a better job of convincing whoever 
might be in this horrible situation just how very important it 
is, and if you have any suggestions of how we might be able to 
communicate that at that terrible moment that the right choice 
is to go to the hospital and make sure that evidence is 
collected?
    Ms. Smith. I think, of course, education would be the 
primary factor in that. And, yes, I think that is very 
important. I think that is one thing that the SANE program 
does, which is Sexual Assault Nurse Examiners, because in 
letting people know that the program is available, it lets 
people know that if you are sexually assaulted that it is a 
one-on-one program where a nurse collects the evidence, but 
that if the rape victim herself does not hear that, then maybe 
her friend or whoever it is that she goes to will know that and 
they can take her or convince her to go and have this done.
    It is only education, and that is one reason why we decided 
to go public with this is because rape is not something that 
the victims should feel guilt about, but yet it is the one 
crime where the blame is placed on the victim. That is one 
reason that we decided to be public with this. I believe that 
it is only as people will speak out and stand up and say, 
``yes, I have been raped'' that it will make other victims able 
to go forth, go to the hospital and say this did happen to me 
and I do want something done about this, and take some of the 
fear and some of the guilt away from what has happened to her.
    Ms. Schakowsky. I wanted to ask you a little bit about the 
sense of guilt and the fact that you said that you felt like 
now you were vindicated and you were really believed. Was there 
reason, objective reason, I understand there were a lot of 
emotions going on, but were you made to feel that maybe it 
wasn't true, you were interrogated in such a way that you felt 
that someone believed that it had not happened?
    Ms. Smith. Not really. It was just basically something that 
we all as victims tend to second-guess ourselves. But one of 
the things that did make me feel that way was the questions 
that were asked to me. I was asked the same questions over and 
over again, they were just phrased a little differently. I felt 
as if they really were not believing what I was saying, they 
were trying to kind of trip me up to catch me in a lie is what 
I felt. Mind you, if I felt this way, other victims probably 
felt it even more so, because this did happen in my own 
community where my husband worked as a police officer, so I was 
family. So they were handling me with kid gloves, so to speak. 
So I felt that if I felt this way, how much more must it be 
that way for other victims who do not have that contact. That 
was also a very deep concern of mine because I know that I was 
handled very gently and so it really did bother me what other 
victims might be going through.
    Ms. Schakowsky. So even though the subject of this hearing 
is DNA, I appreciate very much your sharing this and it can 
spill over into other issues that we can consider as a body. 
Thank you very much.
    Ms. Smith. Thank you.
    Mr. Horn. Thank you. You mentioned the SANE program. What 
does that stand for?
    Ms. Smith. Sexual Assault Nurse Examiners. They are trained 
by a school out of our lab in Virginia to know how to do the 
physical collection of the evidence as well as handling those 
first emotional problems that a victim may have.
    Mr. Horn. We thank you very much. You have given sufficient 
testimony here, and if you want to stay, we would be delighted 
to have you because the next panel will be on how the States 
and the Federal Government try to get the DNA data so that 
people who should be in jail are sent to jail. So feel free to 
stay the morning.
    Mr. Scheck, attorney, director of the innocence project of 
the Cardozo School of Law in New York.

 STATEMENT OF BARRY SCHECK, ATTORNEY, DIRECTOR, THE INNOCENCE 
                 PROJECT, CARDOZO SCHOOL OF LAW

    Mr. Scheck. Thank you very much. It is a privilege to be 
here. Let me start by saying this is the second time I believe 
that I have had the privilege to be with Mrs. Debbie Smith and 
hear what she has to say. I want to emphasize two points right 
away. I am here to tell you about priorities on how we can most 
efficiently do DNA typing, deal with these backlogs, and there 
are two initial points to be made that directly stem from what 
Debbie Smith told you today. No. 1, every crime lab in this 
country, at the State and local levels, have to have the 
capacity to do DNA typing on a rape kit within 7 to 10 days 
after a crime like this is committed so they can take the DNA 
profile of the assailant and put it in the databank and see if 
it matches any other unsolved sexual assault that is going on 
in the community. All laboratories do not have that capacity. I 
pick 7 to 10 days because that is the turnaround time in the 
United Kingdom where they are getting far more hits than we are 
linking unsolved cases to each other. That is No. 1.
    No. 2, and it is the second priority I mentioned in my 
testimony that has been submitted, there are hundreds of 
thousands of rape kits that are literally being thrown away in 
police labs and medical examiners' offices all across the 
United States. Our national DNA Commission had a survey done, 
frankly, a quick and dirty survey, and I mean no disrespect to 
the people that did it, that estimated 180,000 untyped sexual 
assault kits, rape kits throughout the country, but that is no 
doubt an underestimate. Literally, what is happening is that 
these cases are not being typed. They should be immediately 
typed and put in the system so, again, you will be able to 
identify serial rapists, serial rapists/murders right away. And 
yet, that has not happened.
    Now how do I come to be so concerned about that, aside from 
having heard Debbie Smith before or sitting as a commissioner 
on the national DNA Commission. What you may not know is that I 
and the co-Director of the Innocence Project, Peter Neufeld, 
actually serve as Commissioners of forensic science in the 
State of New York. New York has a unique body called the 
Forensic Science Review Board. It is an independent group of 
professionals and crime lab people, judges, and police officers 
that regulate our crime lab. We passed this bill 6 years ago. 
And so we officially regulate our crime labs and regulate the 
DNA databanks. And what I discovered wearing the hat of a 
commissioner of forensic science is that in the New York City 
Medical Examiner's Office alone, which only governs New York 
City, we had 25,000 untyped sexual assault kits, cases just 
like Debbie Smith's. And literally what would happen is when 
the 5-year statute of limitations would run, they would throw 
away the rape kits. I went to the then police commissioner, 
Howard Safer, somebody that Peter Neufeld and I sue on a 
regular basis, police brutality cases----
    Mr. Horn. With good cause.
    Mr. Scheck. We assume it. We represent Abner Nueva, who is 
a crime victim. So we said to the commissioner you must stop 
this. And to his great credit he said yes. That was 3 years ago 
and he immediately put out for bid, trying to outsource it to 
private labs because our State and local labs did not have the 
capacity, and effort to type these 25,000 rape kits. And even 
in the most aggressive effort in the country to deal with this 
problem, we have only been able to type 8,000 to this point in 
time.
    But one of those is a very interesting case that I think 
has been noted by others. We had this terrible sexual assault, 
I think Congresswoman Maloney mentioned it, of a producer that 
in the middle of the day was dragged into a vestibule area at 
Rockefeller Center near the NBC studios and sexually assaulted. 
The assailant in that case, we were able to get his DNA, even 
though he was out on parole or probation, type it, put it into 
the databank, and he was apprehended, and I will explain why 
that matters.
    What I would like to try to quickly go through with you are 
priorities. This is a subcommittee, part of a larger committee, 
that is talking about efficiency in government. We can throw a 
lot of money at this problem, and we should, we are woefully 
underfunded on the State, local, and national levels in terms 
of capacity to do DNA testing, but it is critically important 
that we do this funding now, because we are never going to make 
up all the demand for this, we do it intelligently so that we 
can prevent crimes from being committed by apprehending the 
guilty assailants quicker, we can prevent innocent people from 
being arrested, tried, convicted, or, God forbid, executed, and 
there is more than enough evidence of that, in a very efficient 
way. And we need your help because some of the people that are 
about to testify before you, whom I have known well and worked 
with for years, are in bureaucracies and they have their own 
problems dealing with all kinds of officials and all kinds of 
pressures put upon them, and I come before you, a law 
professor, right, a criminal defense lawyer, somebody that 
serves as a commissioner, a public official, and I must tell 
you that I do not owe anybody anything. So I think I can speak 
pretty directly to some of these priorities. I ask you to query 
my friends carefully about them and see why they cannot better 
produce on these things.
    So, No. 1 priority. You must have the capacity to type 
samples in rape cases, in murder cases, and, frankly, 
burglaries and other cases where you can do it right away, 
within 7 to 10 days after the crime is committed. And what you 
must worry about, millions of dollars are being put into 
reducing backlogs, is that you do not impair the capacities of 
the lab, indeed you have to get these labs to type the new 
cases right away. I have seen this before--clean up this 
backlog of somebody that is sitting in jail for the next 20 
years, a convicted offender, it is important to type that 
sample, that is true, but the person is in prison, but it is 
more important to make sure that the sample is typed in the 
case of the victim so that can be put in the database and we 
can see if it is somebody else.
    Let's speak about a case in New York. We had a serial 
rapist; 17 cases were connected to each other, and it was not 
immediately apparent to investigators that all 17 cases were 
related. It turned out that this particular serial rapist 
usually wore a mask, and so in most of these cases the victim 
could not make an identification or even give a description for 
a sketch. In 1 of the 17 cases, and we only knew they were 
related because we had DNA on unsolved cases right after it was 
committed, 17 of them, in the 17 case the victim was able to 
pull the mask off the assailant and give a sketch that could 
then be distributed to police officers. This was instrumental 
in leading to this man's capture. So you can see it is a 
powerful investigative tool.
    So, No. 1, you must not under any circumstances impair the 
ability of these labs, indeed, you need to empower them, they 
do not have the capacity right now, to do the new cases. That 
is No. 1.
    No. 2, we have to deal with these old unsolved cases, these 
rape kits before they are thrown away. Incidently, there is 
legislation being proposed in State after State. There is a 
simple way to do this to prevent the statute of limitations 
from running. First of all, you should pass a statute in each 
State that says, and they are doing it, you can get a John Doe 
warrant against a DNA profile of an unsolved case where 
somebody has committed the crime, and that tolls the statute of 
limitations. So if the statute of limitations is 5 years or 7 
years, as long as that John Doe warrant is on file, you can 
pick that person up and prosecute them later. The model bill 
which I submitted to you is one that I believe Speaker Sheldon 
Silver has proposed in New York because it helps with the 
backlog issue.
    What Speaker Silver proposed is you can get this John Doe 
warrant and we will extend the statute of limitations a year or 
two, but we will also give additional money to our laboratories 
to type these unsolved rape kits before the statute runs. It is 
a much better idea than just abolishing the statute of 
limitations, which, frankly, serve good purposes to prevent 
people from being prosecuted on stale evidence. It should not 
be infinite. But that is the way to do it. So you have these 
unsolved rape kits, unsolved homicides before the advent of 
DNA. We can go back now and get blood stains, hairs, all kinds 
of evidence, type it and solve unsolved homicides. So that is a 
key priority.
    A third priority ought to be post-conviction DNA testing. 
Now, as Congresswoman Schakowsky noted, there is this Innocence 
Protection Act, sponsored by Delahunt and LaHood here in the 
House, and I think a number of you are sponsors of that, and 
also in the Senate by Senator Leahy and Gordon Smith. I urge 
you to get this legislation passed this session. What it is 
going to do, just one of its provisions, is mandate any State 
that wants to be part of the DNA data banking system, and every 
State gets money and every State wants to be, would have to 
pass a statute that said that an inmate has a right to get 
post-conviction DNA testing if it would raise a reasonable 
probability that they did not commit the crime.
    Two States had this bill 5 or 6 years ago, New York and 
Illinois. It is not a coincidence that New York and Illinois 
have the most post-conviction DNA exonerations. Now we have 
bills passed, good bills, in California, in Arizona, in 
Oklahoma. Frankly, there have been some bad bills passed. 
Florida just passed a bill that was just signed the other week. 
The bill says, OK, you can get a post-conviction DNA test but 
you have 2 years to do it. Now I can tell you, because we have 
been doing these cases, that it takes far longer. If you are an 
inmate in prison and you do not have any money, you do not have 
a right to a lawyer, you do not have a lawyer, you have to get 
transcripts, you have to find the evidence, 75 percent of the 
time the evidence is lost or destroyed, you have to make a 
proper presentation in court to get the DNA test under this 
statute. There have been 10 people exonerated from death row 
with post-conviction DNA testing. All 10 of them would have 
been dead under the Florida bill because they could not get the 
resources to make the application within 2 years.
    It is great to pass the Innocence Protection Act, but it is 
an unfunded mandate. What we have to have is an allocation of 
resources so that we can get some of these people into court so 
they can get the DNA testing to prove their innocence. And I 
want to emphasize that in so many of these cases, once we find 
the convicted offender, we also find the real perpetrator; 
hopefully before that perpetrator commits more crimes.
    I call to your attention, Mr. Putnam and others, to 
Florida. We have only had one post-conviction DNA exoneration 
in Florida. Frank Lee Smith, an inmate on death row, died 
trying to get the DNA test because under Florida law he could 
not go into court to get the DNA test. The prosecutor denied 
the DNA test, refused to give it to him. He died in prison of 
cancer. The defense lawyers, we had maintained that there was a 
serial murder-rapist named Eddie Lee Mosely who committed the 
crime that Smith had been convicted and put on death row for 
committing. The day Al Gore conceded, they leaked the fact that 
our friends at the FBI had done a DNA test, after we had 
preserved the samples and prevented them from being destroyed, 
showing that Frank Lee Smith was innocent and Eddie Lee Mosely 
had, in fact, committed that crime.
    Some very wonderful detectives in the Ft. Lauderdale area 
began developing evidence in another case of a man named Jerry 
Frank Townsend. He had plead guilty ultimately to rape-murders, 
five of them, two actually in Florida, to avoid the death 
penalty. He had been convicted of three, two others in Miami he 
plead guilty to. All five were committed by Eddie Lee Mosely, 
the serial offender. Jerry Frank Townsend is a mentally 
retarded man who confessed to these crimes that he did not 
commit.
    There are others like that. And these are cases where if 
earlier we had been able to look at these post-conviction cases 
we could prevent other crimes from being committed, because 
frequently it is serial offenders. It is a wider set of 
victims. It is the victims of the crimes themselves and their 
families, and it is the inmates that are innocent and their 
families that are victims of all of this.
    We cannot have these unfunded mandates. I would suggest, we 
have a network of law schools now that are voluntarily coming 
forward, way underfunded--come to our offices sometime, you 
will see letters piled up to the ceilings that we have not even 
been able to read--and very small amount of money from the 
Federal Government to fund projects run by law professors, some 
of whom were former prosecutors or crime lab people. To try to 
get into this backlog would be very efficient and cost-
effective.
    Mr. Horn. Mr. Scheck, am I understanding this correctly 
that New York has a 30-day waiting period in rape cases?
    Mr. Scheck. A 30-day waiting period?
    Mr. Horn. A 30-day waiting period. I am just curious what 
that means. Is there a 30-day waiting period in rape cases?
    Mr. Scheck. You mean before the testing can be done? I 
would imagine the turnaround, I am not altogether sure, my 
colleagues here might be able to be more specific about what it 
is. We have different labs in the city of New York, we have the 
State lab, we have them in Suffolk County. I cannot speak, and 
I would not want to speak too quickly.
    Mr. Horn. Well, we will ask them.
    Mr. Scheck. But I know that the turnaround--30 days would 
be good compared to what is going on in many jurisdictions.
    Now there is another thing that I really would ask you to 
question my colleagues about in law enforcement. I have never 
understood this, dealing with the issue of the backlog. There 
are 1 million people it is estimated that are on parole or 
probation whose samples should be in the databank because they 
have committed a violent felony, probably a rape or a homicide, 
but they are out on supervised release, they are on parole or 
probation. They are part of the backlog. We should be going out 
and getting their samples first.
    I will tell you what happened in the State of New York. 
Because we have this kind of unique forensic science commission 
and we regulate the DNA databank, we said to the State 
officials, look, we know that you have a few hundred thousand 
samples that you have got to type of convicted offenders who 
are in prison, but we want you first to type the people that 
are on the street because they are the ones that could go out 
and commit the crimes. So we want the people on probation, the 
people on parole tested first. Initially, our officials came in 
and said that is too hard. It is much too hard because we have 
to go out and find them, we have not trained our people, it is 
much easier to go into the prisons where they are already there 
and collect it from them. It is too hard, so we will do those 
later. We said no, no, no, you have got to do those first.
    Now, this NBC case is a good example. Some people were 
complaining that this man was not captured soon enough. He had 
been released from jail but he was forced to come in and give a 
sample because he was on parole. And that is how he was 
located. It is 1 million people. Those should be the first 
people tested. Yet, when my colleagues from NIJ and on our 
national DNA commission sought to go and--I wanted them to say, 
listen, if you are going to give money to the States, there 
ought to be conditional grants. They ought to get more money if 
they say they are going to cleanup the backlog by typing the 
old samples, the people on the street, first rather than people 
in prison. Well, they say they would rather not have the money 
than do that. Look, I am just a law professor. I do not 
understand it. It makes no sense. It is completely backward. 
Maybe you can figure it out for me. But that is something that 
should be done.
    Obviously, we have to do the convicted offender backlog. 
There are about 400,000 of them now it is estimated. What we 
did in New York is that when they first come in we type them, 
right after they are convicted, but everybody that is about to 
leave is typed before they get on the street. And that makes 
sense. If you are to do it, you should do it intelligently. The 
last people to be typed, frankly, are the ones that are doing 
20 to 40 years. First get the people on the street.
    Another thing, and this would be my final point to you, one 
of the things that I know some of my friends at the FBI want to 
testify about, and I know you noted it in opening remarks, 
there is a new kind of DNA test called mitochondrial DNA 
testing. This is an assay that allows DNA to be taken directly 
from the shaft of the hair. With the other kinds of DNA testing 
that we use for the databank, the short tan repeat [STR], you 
would need a fleshy root of the hair.
    What we are finding is that microscopic hair comparisons 
is, in my judgment, junk forensic science. Repeatedly, it can 
be shown that this kind of comparison between an unknown hair 
and known hairs is flawed and wrong. Maybe my friends from the 
FBI will not like that much. But it has been flawed, frankly, 
on both inclusions and on exclusions that we can show using 
this mitochondrial DNA testing. But what they will tell you I 
am sure is that even when they have a good hair person from the 
FBI, Agent Dietrick, when he looks at an old case where 
somebody was convicted on microscopic hair comparison testimony 
and Agent Dietrick says, ``OK, I agree with the examiner, this 
is a match.'' when they finally go to do mitochondrial testing, 
5 to 10 percent of the time the mito shows that the inclusion 
is inaccurate. We now have the capacity to look at the these 
hair cases and what we have found is that when we calculated it 
for 74 of the post-conviction exonerations--since our book 
``Actual Innocence'' came out in February there is an 
exoneration every 18 days, so, you know, how to keep up with 
it--I have not calculated all the hairs, but out of the 74, 33 
had microscopic hair comparisons.
    Now this is going to be a big problem and you have to find 
more money for mito testing, whether it is increasing the 
capacity of the FBI, or outsourcing to other private 
laboratories. Right now in Oklahoma there is a scandal. There 
is a chemist named Joyce Gilchrest who was known for being a 
forensic scientist of questionable repute, even by her peers. 
The FBI has gone in and looked at eight of her cases and in 
five instances were very troubled by the results. Now 1,400 of 
her cases in Oklahoma have been isolated and there will be 
certainly hundreds that will have to be reviewed. The State of 
Oklahoma alone, just for Gilchrest cases, has allocated 
$700,000 to do DNA testing on these old cases to see if we can 
correct injustices.
    I am telling you right now that even though more attention 
should have been paid to Joyce Gilchrest as a forensic 
scientist, this same kind of situation, the problems, the 
limits of microscopic hair comparison in old cases, it is in 
every State. It is in every State. And it is a comparatively 
more expensive test because it can cost presently $1,000, 
$2,000 per hair. There may be ways that our friends will 
suggest of funding some research to do some assays that are 
quicker screening procedures that will bring down the cost. But 
this is another priority that you are going to have to look at.
    So in closing, what I really urge this committee to do is 
look for ways to prioritize. We are not going to have as much 
money as is necessary, frankly, to do everything. But if you 
can do the new cases; you certainly can do the cases of these 
unsolved rape kits, do those right away, that is basic justice; 
if you can do the basic justice of allowing these people who 
are rotting away in jail or on death row to get their chance to 
prove their innocence, which will also find the real 
perpetrator in many instances before they commit more crimes; 
if you go and get the old samples, the people that are on the 
street first; if you do all those things or find ways to 
stimulate our friends here to do it, it would be a tremendous 
service and really in the name of efficiency, which, after all, 
I guess this subcommittee is all about. Thank you.
    [The prepared statement of Mr. Scheck follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.011
    
    [GRAPHIC] [TIFF OMITTED] T8050.012
    
    [GRAPHIC] [TIFF OMITTED] T8050.013
    
    [GRAPHIC] [TIFF OMITTED] T8050.014
    
    [GRAPHIC] [TIFF OMITTED] T8050.015
    
    [GRAPHIC] [TIFF OMITTED] T8050.016
    
    [GRAPHIC] [TIFF OMITTED] T8050.017
    
    [GRAPHIC] [TIFF OMITTED] T8050.018
    
    [GRAPHIC] [TIFF OMITTED] T8050.019
    
    [GRAPHIC] [TIFF OMITTED] T8050.020
    
    [GRAPHIC] [TIFF OMITTED] T8050.021
    
    Mr. Horn. We thank you.
    Do any of my colleagues have questions at this time? Does 
the gentleman from Florida have any questions?
    Mr. Putnam. Thank you, Mr. Chairman. Mr. Scheck, you 
summarized it there at the end and if you would please restate 
your prioritization, your hierarchy of testing, begin with 
death row, next hit those people who are on the streets with 
parole/probation. Are those your top two?
    Mr. Scheck. I would hesitate. No. 1, and I really want to 
emphasize this, crimes that are now being committed. A victim 
of a sexual assault, there is no excuse for not typing that 
case right away to see whether or not it matches other unsolved 
cases that lead to the investigation and apprehension of that 
individual. We must make sure that the labs have the capacity 
to do that. It would be a terrible mistake, and this is my 
fear, that in the name of cleaning up backlog the labs do not 
have that capacity. So we have to make sure that they have that 
capacity, and I assure you they do not have it now in various 
different States. Some States do. Florida is pretty good, 
Virginia has more capacity. But even in Virginia, Profoare 
complains all the time that he has these problems with the new 
cases. So I would say you have to make sure that is done first.
    I would say the old unsolved cases, and I include within 
that the post-conviction cases, because, in a sense, if 
somebody is saying I am innocent, please test my case, that is 
one that is in question if a test could make a difference in 
the case and no DNA was ever done. So there is that class of 
cases. And these rape kits. The old unsolved cases, there is no 
excuse for not doing those right away.
    Then, if you are going into the backlog issue, the first 
backlogs that I would do are the people that are on parole or 
probation. It is more important to get them, they are on the 
street. These individuals might commit new crimes. The statutes 
say their samples should be in the databank. The States are 
going to say to you, ``Administratively, it is just too hard to 
find my parolee, to find my probationer and bring them back and 
have them just take a swab, a buckle swab, roll it in the 
mouth, if that is the method of collection, and give it to the 
lab to do DNA typing.'' I find that ridiculous. That is what my 
very well-intentioned colleagues are being told every time that 
they approach this State authority. Some people are even saying 
to them, ``We will not take your money if that is the 
condition. It is too hard.''
    Mr. Putnam. Let me change gears with you. What would you 
say to those who are concerned about the privacy issues? How 
would you deal with that aspect of this?
    Mr. Scheck. Well, privacy issues is a coming concern. Right 
now, as far as the Federal system, the CODIS system is 
concerned and the DNA Identification Act of 1992--I know 
because I testified about it--that we had privacy protections 
built-in. That is to say, you can only use the DNA profiles for 
identifying missing persons, identifying unknown crime samples, 
and matching convicted offenders.
    Where the privacy issue is coming to bear now is that as 
State and local authorities develop their own capacity to do 
DNA testing, they are creating parallel databanks; that is to 
say, you might call it a ``Usual Suspects Data bank.'' I think 
everyone in our DNA commission was quite concerned that when 
Cecelia Krause, a wonderful examiner from Florida, put up an 
anonymous note on a list server asking crime lab examiners, 
``When you are creating your own computerized databank that is 
outside of the CODIS system, what kind of samples do you put in 
there?'' Some of them actually e-mailed back ``We put in the 
samples from rape victims, or elimination samples, or suspect 
samples.'' So, think about it. Somebody is the victim of a 
crime, this sample is taken and put into a computerized 
databank because the police think, well, maybe this victim is a 
drug offender, or maybe it is suspicious, or let's just keep it 
around.
    I think most sensible crime-lab people are not engaged in 
this practice, but some were. That whole development of State 
and local databanks is unregulated for the most part. There are 
no privacy restrictions built into it. I think that we are 
heading for some real trouble there and that States better get 
their act together and regulate that and put very, very strict 
privacy restrictions on it. I am a very big proponent of DNA 
testing and DNA databank conducted correctly. But I think there 
is a healthy skepticism out there that if the Government has 
got your DNA, God knows what they are going to do with it. And 
I do not think that sometimes my friends in law enforcement are 
acting in their own enlightened self-interest. They should put 
more privacy protections on themselves so that we do not have 
some kind of civil liberties disaster where you get a lot of 
opposition to this because people are fearful that insufficient 
privacy protections are in place.
    Mr. Putnam. Unlike a finger print, DNA is the key to the 
kingdom. It is an infinitesimally more informative piece of 
information about any human being. So, to the extent that as 
capacity grows and technology catches up with the backlog and 
we begin to expand these to other crimes, where down the 
hierarchy from rapists and murders do you take these DNA 
samples? Do you take them from forcible entry suspects and 
convicted felons, DUI offenders, juvenile offenders. Where in 
the hierarchy do you stop taking DNA samples?
    Mr. Scheck. Well, I think that burglaries, I have to say, 
are a very important area to be doing DNA typing. In truth, and 
I know some of the subsequent witnesses are going to talk about 
it, we really have to train law enforcement on how to collect 
the evidence correctly and make sure they do not contaminate it 
and get confounding results. But burglaries are a very 
important area.
    In the United Kingdom, they really specialize in typing in 
burglaries. So what you will find is that a perpetrator might 
leave blood at the point of forced entry, might drink from this 
cup in the course of the burglary and leave the cup or the beer 
bottle there and you can swab that, get the DNA pattern, and 
you can find such offenders. They do link up very often with 
even more serious offenses. So burglary is something to look 
at.
    The more you expand the number of categories that are 
included the bigger the backlogs get. Everybody is going to 
tell you that. States are moving, at first they were pretty 
much just limiting it to sexual assaults and murder, now, quite 
rationally, they are expanding it to even as far as all 
felonies. But, interestingly enough, our national DNA 
commission recommended to the Attorney General that States not 
go to the point where they collect DNA from people at arrest. I 
have concerns about it for civil liberties reasons, some of my 
colleagues share them, some of them were less concerned about 
the civil liberties reason. But for practical purposes, 
everyone on our commission agreed that it would be a nightmare.
    The States absolutely cannot cope with being forced to type 
everybody at arrest, because right now they have a million old 
samples of people who have committed murders and rapes who are 
on the streets that they are not typing, they say we cannot do 
it, they are not able to type a murder or rape within 7 to 10 
days after the crime is committed, they have other backlogs, 
they cannot do post-conviction DNA testing in great numbers. If 
you do all of that, you spend a few billion solving that 
problem, then come back and talk to me about arrests and we can 
discuss that issue.
    A lot of this is really common sense. And if you can get 
the priorities right, you are not only going to protect the 
innocent, but you are really going to protect victims in a 
profound way. It is common sense. It is good law enforcement. 
It is cost-effective. The challenge to the committee is to get 
the bureaucracies to respond to the priorities more 
sensitively.
    Mr. Putnam. Thank you. My time has expired.
    Mr. Horn. Mrs. Maloney.
    Mrs. Maloney. Mr. Chairman, I do have a couple of questions 
for Mr. Scheck. I particularly wanted to welcome him from the 
great State of New York. And I wanted to ask, from your 
experience and your work, Mr. Scheck, do you think that there 
is a need for a standardized victim physical evidence recovery 
kit? Apparently some hospitals do not have them and there is 
not a standard. Do you believe we need a Federal standard?
    Mr. Scheck. There is no question I think that we do need a 
standard. I know that Dr. Henry Lee and Robert Ganzlen have 
issued a very interesting report to NIJ about these rape kits, 
because the rape kit is the beginning of everything. If you 
have a sensitive and intelligent collection of the evidence, 
just think about a bite mark--I will give you a case of a 
client we have in New York. A man named O'Donnell was convicted 
and sentenced to prison in a sexual assault case. But by the 
intelligent collection of the samples, they were able to get 
saliva from the bite-mark and do fingernail scrapings from the 
victim when she scratched and struggled with her assailant. DNA 
typing of the saliva from the bite-mark and the fingernail 
scrapings matched the real assailant whose profile is not in 
the databank and exonerated Mr. O'Donnell, who I think did 
about 7 or 8 years. But it was only because of the excellent 
collection in the rape kit and the way that was handled that we 
were able to solve the crime. So it all begins with the rape 
kit and that is absolutely critical, Congresswoman.
    Mrs. Maloney. You mentioned that we have limited resources, 
and we do. Where should we put our limited resources; what is 
the top priority?
    Mr. Scheck. Again, the ones I mentioned, and certainly the 
rape kit is certainly one of them. I do not know of one 
hospital or one law enforcement agency today that should not be 
using it in some fashion or form. It would be really 
intelligent and cost-effective to make sure that everybody was 
using a similar one so that we could adequately preserve and 
collect the evidence.
    Mrs. Maloney. If you could make one legislative change, 
what would it be?
    Mr. Scheck. Boy, that is a tough one. This would be one of 
them. And certainly everything concerning the capacity to type 
the unsolved rape kits and the post-conviction ones. I would 
consider those unsolved very high on the list.
    Mrs. Maloney. Thank you. I have further questions, but I 
would like to hear from the next witnesses. Thank you.
    Mr. Horn. Both the majority and the minority staff can 
pursue questions with all of this and put it in the record at 
this point. Without objection, so ordered.
    We are going to have to move on now. You are certainly 
welcome to stay, Mr. Scheck, if you would.
    We have eight witnesses on Panel II. Mr. Adams, Mr. Boyd, 
Mr. Asplen, Mr. Lawlor, Mr. Coonrod, Dr. Downs, Mr. Conley, and 
Mr. Lothridge, if you would please come forward.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all of them have 
affirmed.
    We are going to start with Mr. Dwight Adams. He is Deputy 
Assistant Director of the Laboratory Division of the Federal 
Bureau of Investigation. Mr. Adams and others have given us 
really marvelous documents on this. Those are all automatically 
in. And once I call on you, the full text is in and we would 
like you to sort of summarize it and give us the high points.
    Mr. Adams, welcome.

   STATEMENTS OF DWIGHT E. ADAMS, DEPUTY ASSISTANT DIRECTOR, 
     LABORATORY DIVISION, FEDERAL BUREAU OF INVESTIGATION; 
ACCOMPANIED BY DAVID BOYD, DEPUTY DIRECTOR, NATIONAL INSTITUTE 
 OF JUSTICE; CHRISTOPHER ASPLEN, EXECUTIVE DIRECTOR, NATIONAL 
COMMISSION ON THE FUTURE OF DNA EVIDENCE; MICHAEL LAWLOR, STATE 
REPRESENTATIVE, CONNECTICUT GENERAL ASSEMBLY, ON BEHALF OF THE 
NATIONAL CONFERENCE OF STATE LEGISLATORS; KEITH COONROD, CHAIR, 
 CONSORTIUM OF FORENSIC SCIENCE ORGANIZATIONS, NEW YORK STATE 
 POLICE FORENSIC INVESTIGATION CENTER; JAMIE DOWNS, DIRECTOR, 
CHIEF MEDICAL EXAMINER, ALABAMA DEPARTMENT OF FORENSIC SCIENCE; 
     ROBERT S. CONLEY, CHAIRMAN, AMERICAN SOCIETY OF CRIME 
    LABORATORY DIRECTORS/LABORATORY ACCREDITATION BOARD AND 
 DIRECTOR OF THE INDIANA STATE POLICE LABORATORY SYSTEM; KEVIN 
     L. LOTHRIDGE, DEPUTY DIRECTOR, DIRECTOR OF STRATEGIC 
    DEVELOPMENT, NATIONAL FORENSIC SCIENCE TECHNOLOGY CENTER

    Mr. Adams. Thank you, Mr. Chairman, members of the 
subcommittee, for the opportunity to speak to you about a few 
of the FBI's experiences in working with local, State, and 
Federal agencies to implement forensic DNA analysis and our 
Combined DNA Index System [CODIS].
    CODIS began in 1990 as a pilot project involving 12 State 
and local forensic laboratories. During the initial testing 
phases, the comments and observations of those original State 
and local laboratories helped to steer the course for CODIS 
today. Before each upgrade is implemented in CODIS, those State 
and local laboratories have an opportunity to serve as beta 
test sites and continue to assist us today in ensuring that the 
software that we implement is responsive to their needs as 
users. Without these collaborative efforts by these State and 
local laboratories, CODIS would not achieve the success that 
you read about in the papers every day.
    CODIS is currently installed in 137 laboratories in 47 
States, and another 24 laboratories in 12 countries 
internationally. The CODIS software enables State and local 
forensic laboratories to exchange and compare DNA profiles 
electronically, thereby linking serial violent crimes to each 
other and identifying suspects by matching DNA from crime 
scenes to convicted offenders. The FBI laboratory continues to 
provide CODIS software, installation, training, and user 
support at no charge to Federal, State, and local laboratories.
    The concept behind CODIS is to create a database of States' 
convicted offender profiles and use it to solve violent crimes 
for which there are no suspects. As you know, all 50 States 
have DNA database laws that cover a wide variety of criminal 
offenses. All States collect DNA samples from offenders 
convicted of sex offenses.
    The overwhelming majority of States have expanded beyond 
their scope of the original laws which covered just sex 
offenses. In fact, our research indicates that now only three 
States cover only sex offenders. I have attached a chart of 
qualifying offenses by States to my written statement. Of 
particular note is the fact that 10 States are now authorized 
to collect from all of their felony offenders, and it looks 
like another State, Texas, will soon be added to that group. We 
believe that eventually all States will be collecting from all 
convicted felony offenders. So far this year proposals to 
expand the qualifying offenses has been introduced in 30 State 
legislatures, with well over half of these proposals to include 
felony offenders.
    State legislation serves as another example of how Federal 
and State agencies have worked together to implement DNA 
database programs. Beginning with the issuance of legislative 
guidelines in 1991, the FBI laboratory has provided technical 
assistance in the form of briefings on CODIS, review of draft 
legislation, and testimony before legislative committees to 
assist States in enacting DNA database legislation.
    In order to plan for CODIS in the future, the FBI has 
observed the implementation of these database programs and has 
learned from each of their experiences. We realize from the 
steady expansion of State laws that CODIS of the future will 
need to quickly and efficiently search millions of DNA profiles 
and provide a platform that is less costly and more easily 
maintained by both those participating States as well as the 
FBI. We have been working toward those CODIS enhancements. For 
example, the University of Tennessee has been developing a 
matching algorithm that can search millions of DNA profiles in 
minutes. We could not have reached that point without the 
assistance of the Florida Department of Law Enforcement because 
it is they who test that new search engine for us. With 
recognition of DNA as a powerful identification tool, as 
evidenced by its use in both solving and reviewing cases from 
past decades, DNA databases are becoming an integral component 
of law enforcement's arsenal.
    One final example of cooperation among local, State, and 
Federal laboratories, before I conclude, as well as a 
suggestion for an area of future collaboration. As the PCR-
based technologies were being introduced into forensic 
laboratories across the country, the FBI realized that 
standards would need to be established for this new technology, 
as had been done previously for the earlier technology. A 
criteria that is crucial to the proper use of DNA database 
implementation is the use of consistent technologies. We knew 
that we would have to establish core loci for the new 
technology in order for the national DNA database to be 
successful.
    The FBI convened a group of 21 Federal, State, and local 
authorities, as well as international forensic laboratories to 
validate what are known as the STR loci for use in CODIS. The 
FBI provided the samples and kits and reagents to all of these 
participating laboratories in order for them to validate the 
use of STR analysis. After many months of testing, the 
participating laboratories recommended 13 STR loci for use in 
CODIS. This recommendation was adopted by the FBI and is known 
as the 13 Core CODIS Loci.
    A future and yet untapped area that would significantly 
benefit from collaboration between local, State, and Federal 
laboratories was mentioned earlier by Mr. Scheck, that involves 
mitochondrial DNA technology. Certain tissues like hair, bones, 
and teeth have little or no nuclear DNA but can often be 
successfully typed using mitochondrial DNA technologies. 
Biological evidence recovered from missing persons is often in 
advanced stages of decomposition with little or no nuclear DNA. 
But mitochondrial DNA can get results.
    After many years of research and validation, the FBI 
laboratory implemented testing using mitochondrial DNA in June 
1996. To date, we have completed nearly 700 cases. As its 
success and admissibility in the courts has grown, demands for 
its use have also grown. But those demands exceed the FBI 
laboratory's current or likely future capabilities. Having 
anticipated the need for other forensic laboratories to develop 
their own mitochondrial DNA capabilities, we began a training 
program in 1998 whereby we were training State and local 
laboratories to use this technology.
    As you know, CODIS includes a missing persons index which 
can match the DNA profiles using mitochondrial DNA results. 
This index, however, contains very little DNA data because the 
FBI laboratory remains the only public crime laboratory 
conducting mitochondrial testing. This is an area ripe for 
collaboration between Federal, State, and local laboratories. 
One solution might be a nationwide network of six to eight 
State and local forensic laboratories that could provide 
mitochondrial analysis to the criminal justice agencies across 
the country. The FBI laboratory could provide administration 
for the network, train the personnel, and ensure audit 
adherences to the quality assurance standards. The FBI is 
committed to support the CODIS program and to continue these 
beneficial collaborations with Federal, State, and local 
forensic laboratories in implementing DNA technologies.
    One last comment. You heard the very poignant testimony of 
Mrs. Smith this morning talking about how the use of DNA and 
the use of CODIS has brought her life back to her once again. 
That has happened countless thousands of times across the 
Nation. But I am here to tell you that there are also thousands 
and thousands of victims whose crimes have not been solved, but 
they have hope, they have hope because this technology is out 
there, it is being used, but it could be used more 
successfully. Thank you.
    [The prepared statement of Mr. Adams follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.022
    
    [GRAPHIC] [TIFF OMITTED] T8050.023
    
    [GRAPHIC] [TIFF OMITTED] T8050.024
    
    [GRAPHIC] [TIFF OMITTED] T8050.025
    
    [GRAPHIC] [TIFF OMITTED] T8050.026
    
    [GRAPHIC] [TIFF OMITTED] T8050.027
    
    [GRAPHIC] [TIFF OMITTED] T8050.028
    
    [GRAPHIC] [TIFF OMITTED] T8050.029
    
    [GRAPHIC] [TIFF OMITTED] T8050.030
    
    [GRAPHIC] [TIFF OMITTED] T8050.031
    
    [GRAPHIC] [TIFF OMITTED] T8050.032
    
    Mr. Horn. Thank you very much. That was a very useful 
statement.
    We now have Dr. Boyd, who is the Deputy Director of the 
National Institute of Justice. We are delighted to have you 
with us this morning.
    Mr. Boyd. Thank you, Mr. Chairman, and thank you and the 
members of the committee for this opportunity to testify before 
you today. My office is the science and technology component of 
the National Institute of Justice, the research and evaluation 
arm of the Department of Justice.
    When NIJ first undertook to conduct research on DNA 
identification technology in the mid-1980's it was a very new 
field, barely known, and not at all used in crime laboratories 
in the United States. Over the next 11 years, with a modest 
research and development investment of about $5 million, NIJ 
managed to fund wholly or in part every significant advance in 
DNA identification technology in the United States.
    Almost immediately after a former director brought DNA 
analysis methods from the United Kingdom to the United States 
in the mid-1980's, two private laboratories picked up the 
technology, followed by Virginia, Florida, and Minnesota, and 
then by the FBI. Which meant that by 1989 there were only four 
DNA capable crime laboratories and two private DNA laboratories 
in the United States. Seven years later when the NIJ began the 
DNA laboratory improvement program, there were still fewer than 
a dozen crime laboratories in the United States capable of 
doing DNA analysis. But today there are more than 130 
laboratories in all 50 States capable of analyzing forensic DNA 
evidence.
    NIJ scientists work closely with the forensic community to 
provide them with the tools they need to work more efficiently 
and economically, and funded the development of accreditation 
and proficiency testing programs through the American Academy 
of Forensic Sciences and the American Society of Crime 
Laboratory Directors. This year we have managed to find a 
better way to fund the analysis of DNA backlog samples so that 
every DNA dollar will buy about 30 percent more DNA samples 
this year than last, and will allow us to support the analysis 
of DNA samples in States with backlogs too small to have been 
economically acceptable before.
    Working with the National Institute of Standards and 
Technology, we developed the reference materials kit now used 
in nearly every DNA capable laboratory in the United States to 
ensure consistency of analysis and reliability of results. In 
1996, NIJ proposed, established, and funded the National 
Commission on the Future of DNA Evidence, about which you will 
hear more when Chris Asplen testifies. Much of the impetus for 
a number of the congressional, administration, and State 
initiatives, including the recent reprogramming of $25 million 
of asset forfeiture money, has arisen from the work of this 
commission.
    We are working with the forensic community and a consortium 
of universities to identify the essential components of an 
acceptable curriculum for a degree in the forensic sciences, 
because laboratory directors tell us they have no confidence 
that someone with a forensic science degree actually has an 
adequate knowledge of the forensic sciences.
    The forensic DNA research and development program continues 
to provide enhancements to existing methods, techniques, and 
technologies, and to create new tools for the future of DNA 
evidence. Current projects aimed to reduce the risk of loss of 
crucial evidence to equipment failures; to develop a 
mitochondrial DNA screening method that allows labs to examine 
old, degraded, or very small evidence samples without resorting 
to expensive and technically demanding DNA sequencing methods; 
to develop high through-put, low-cost mass spectrometry 
instrumentation; and to exploit nanotechnology for forensic 
applications. We expect the first forensic nanotechnology 
project, a DNA chip with all 13 of the required genetic markers 
for databasing, will be in the hands of practitioners for 
evaluation by the end of this year. This inexpensive chip can 
produce a reliable result in under 5 minutes instead of the 
several hours currently required, thus saving thousands of 
analyst years of productivity. This chip may even eventually 
offer new ways to use DNA earlier in investigations.
    Unfortunately, as a recent Rand report notes, the 
laboratories are so overwhelmed by a lack of human resources 
that infusion of new technology is incredibly difficult at 
best. It is therefore imperative that we work to create an 
environment where crime laboratories can function beyond case 
triage and start performing the work that will save the entire 
criminal justice system time and resources. It is that critical 
investigative stage where forensic analysis could rule out 
suspects, direct leads with real data, and help solve crimes 
more quickly and more accurately than can canvassing and eye 
witness interviews that require the use of already overburdened 
investigators. Supporting the full modernization and upgrading 
of our Nation's crime laboratories means more than just saving 
time and money. It means saving lives, stopping crimes, and 
promoting public safety in a very real, tangible way.
    We believe we have made great progress in enhancing the 
ability of public crime labs to analyze forensic DNA evidence. 
But we also believe that we have only just begun to realize the 
full potential of this power technology.
    I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Boyd follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.033
    
    [GRAPHIC] [TIFF OMITTED] T8050.034
    
    [GRAPHIC] [TIFF OMITTED] T8050.035
    
    [GRAPHIC] [TIFF OMITTED] T8050.036
    
    [GRAPHIC] [TIFF OMITTED] T8050.037
    
    [GRAPHIC] [TIFF OMITTED] T8050.038
    
    [GRAPHIC] [TIFF OMITTED] T8050.039
    
    [GRAPHIC] [TIFF OMITTED] T8050.040
    
    [GRAPHIC] [TIFF OMITTED] T8050.041
    
    [GRAPHIC] [TIFF OMITTED] T8050.042
    
    [GRAPHIC] [TIFF OMITTED] T8050.043
    
    [GRAPHIC] [TIFF OMITTED] T8050.044
    
    [GRAPHIC] [TIFF OMITTED] T8050.045
    
    [GRAPHIC] [TIFF OMITTED] T8050.046
    
    [GRAPHIC] [TIFF OMITTED] T8050.047
    
    [GRAPHIC] [TIFF OMITTED] T8050.048
    
    [GRAPHIC] [TIFF OMITTED] T8050.049
    
    [GRAPHIC] [TIFF OMITTED] T8050.050
    
    [GRAPHIC] [TIFF OMITTED] T8050.051
    
    Mr. Horn. Thank you very much. And I note in your testimony 
where you say that the National Commission on the Future of DNA 
Evidence has 22 nationally renowned scientists, attorneys, 
jurists, academics, bioethicists, victims advocates, and 
members of law enforcement and you have come to the conclusion 
that there is a backlog of approximately 750,000 collected but 
unanalyzed convicted offender samples. So that is something we 
really have to deal with.
    We now go to the next gentlemen, Mr. Asplen, executive 
director, National Commission on the Future of DNA Evidence and 
assistant U.S. attorney.
    Mr. Asplen. Thank you, Mr. Chairman, and other members of 
the subcommittee. I greatly appreciate the opportunity to be 
here today.
    In many respects, how efficient and effective we are at 
integrating DNA technology into our criminal justice system has 
a direct effect on how safe our streets and neighborhoods are, 
what crimes we solve, and ultimately what crimes we prevent. I 
look forward to sharing with you a bit of the national 
perspective as observed by the commission.
    The commission was established in 1998 by the Department of 
Justice and has as its mission the maximization of the value of 
DNA technology in the criminal justice system. The commission's 
22 scientific, ethics, and legal experts, as well as over 50 
commission working group members have considered a broad range 
of issues arising from the use of DNA. I will take this 
opportunity to discuss two areas which I believe pertain most 
directly to the issue of efficiency--law enforcement training 
and education, and database backlogs.
    One of the clearest impediments to the effective and 
efficient use of DNA is law enforcement's limited training 
regarding how to properly identify, preserve, and collect 
biological material that may yield a DNA profile of a 
perpetrator. Significantly limited training resources, 
sparingly applied to a complex and ever-changing and improving 
technology, often results in a failure to take full advantage 
of the power of DNA. Police departments are often forced to 
choose, for example, between essentials like bulletproof vests 
and the education necessary to prevent the contamination of 
evidence. All too often important biological evidence is missed 
or contaminated because first responding officers are not aware 
of the potential to find DNA on the saliva of a cigarette butt 
or the invisible skin cells left on the handle of a murdering 
baseball bat.
    Recognizing law enforcement's need, the commission 
developed a number of training tools to educate the entire law 
enforcement community. The immediate success of, and demand for 
these materials is testament to law enforcement's desire to 
take full advantage of DNA.
    The first tool developed by the commission was the pamphlet 
``What  Every Law Enforcement Officer Should Know About DNA
Evidence,'' and this pamphlet will be provided to all of the 
subcommittee members and all the committee members as well as 
the CD-ROMs.
    Mr. Horn. That will be put in the record at this point.
    Mr. Asplen. Thank you, Mr. Chairman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.052
    
    [GRAPHIC] [TIFF OMITTED] T8050.053
    
    Mr. Asplen. The pamphlet explains the biology of DNA, the 
CODIS database, contamination, and lists examples of evidence 
that may contain a perpetrator's DNA. Because the first 
printing run of 1 million copies was depleted in 5 months, NIJ 
committed to another 500,000 copies, totaling 1.5 million. The 
pamphlet was then converted into two interactive CD-ROMs. NIJ 
is already receiving State requests to provide one to every 
officer. Our initial supply of CD-ROMs, however, is a limited 
124,000 for both.
    The tangible benefits of this educational tool, 
particularly the pamphlet, were quickly made apparent. Within 6 
months a rape-homicide was solved directly as a result of that 
pamphlet. Authorities in Texas investigating the strangulation/
rape homicide of a woman sent the cord used to strangle the 
victim to the laboratory specifically for DNA testing. Now 
while the cord would have been collected as evidence in the 
ordinary course of the investigation, this time it was 
submitted for DNA analysis because one of the investigators 
read the pamphlet identifying ligatures as potential sources of 
DNA. After a match to the perpetrator, it was determined that 
the suspect, in an attempt to avoid capture by DNA, had worn 
not only a condom but also rubber gloves. However, when 
struggling with his victim in the process of strangling her, 
one hand was required to hold her down while the other hand 
grabbed the cord wrapped around her neck. The only thing left 
to pull the other end tight enough to kill his victim was his 
mouth, thereby depositing saliva and thus his DNA on that cord. 
He was subsequently linked to several other murders.
    The pamphlet's success is illustrative of two important 
points. The first is the tremendous need by law enforcement for 
these kinds of training materials. When available and 
economically feasible, law enforcement has taken advantage of 
educational opportunities. The second, however, is the 
important role the Federal Government can, and did, play in 
improving the efficiency and effectiveness of DNA through 
education.
    Now effective DNA database utilization is at its very core 
all about efficiency. Absent the analysis of a crime scene DNA 
sample and its comparison to the convicted offender database, 
crimes are solved in the traditional fashion. Manpower is used 
to track down leads and establish an array of suspects. Each 
suspect must be examined and investigated, which uses valuable 
financial and human resources. The time and money spent on 
every wrong suspect is time and money wasted when a rapidly 
analyzed crime scene sample run through the database could 
potentially solve the case.
    Our use of DNA technology only becomes more effective and 
efficient as we move the point of analysis closer to the time 
the crime was committed. A crime scene sample that takes 6 
months to analyze, and under current circumstances, please 
understand 6 months is a relatively quick turnaround time, that 
means six more months of human and financial costs--six more 
months of time and money tracking down suspects who are the 
wrong suspects, six more months of innocent people being caught 
in a web of suspicion that, even if they ultimately are not 
arrested, carry a life-long stigma by nature of the 
investigation, and every day crimes are committed by 
individuals who could be arrested by DNA technology for 
previous crimes but are not because of the forensic and 
convicted offender backlogs and because of the lack of 
laboratory infrastructure.
    Our success at optimizing DNA technology will depend on our 
commitment to law enforcement and our forensic laboratories. 
The number of lives we save from victimization will be in 
direct relation to law enforcement's ability to identify, 
preserve, and collect the evidence; and our laboratories' 
ability to quickly analyze that evidence and enter that profile 
into the DNA database.
    Again, I appreciate the opportunity to be here today. I 
look forward to any questions that you might have.
    [The prepared statement of Mr. Asplen follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.054
    
    [GRAPHIC] [TIFF OMITTED] T8050.055
    
    [GRAPHIC] [TIFF OMITTED] T8050.056
    
    [GRAPHIC] [TIFF OMITTED] T8050.057
    
    [GRAPHIC] [TIFF OMITTED] T8050.058
    
    [GRAPHIC] [TIFF OMITTED] T8050.059
    
    [GRAPHIC] [TIFF OMITTED] T8050.060
    
    Mr. Horn. Thank you very much.
    Our next presenter is the Honorable Michael Lawlor, State 
Representative, Connecticut General Assembly, who is coming 
here representing the National Conference of State 
Legislatures; that is all 50 States.
    Mr. Lawlor. Plus a few Territories, Mr. Chairman.
    Mr. Horn. That is correct.
    Mr. Lawlor. Good morning, Mr. Chairman. Thanks to you and 
Representative Maloney, I know both of you agreed that the NCSL 
was an appropriate group to have at the table this afternoon, 
and I appreciate the opportunity on their behalf. Let me just 
indicate, since, like you, I am an elected official, I 
represent East Haven and the Short Beach part of Bramford in 
the Connecticut Legislature and I think they would be happy to 
hear me say that. But more importantly, I chair the Judiciary 
Committee in our legislature, and for the past 2 years I have 
been the chair of the Law and Justice Committee of the National 
Conference of State Legislatures, which is our policymaking 
board.
    Mr. Chairman, 10 years ago when DNA as an issue in the 
criminal justice system first emerged on the scene, I think 
many of my colleagues were nervous about the implications of 
this new concept. But I think most of the concerns and really 
most of the philosophical objections to this process have faded 
away and now we are left with the practical aspects of this. I 
would like to highlight a few of the statistics that are 
included in my written testimony. But I would encourage you to 
take a look at that as well since I really do not have time to 
get to all of them.
    As has already been pointed out, all 50 States since 1994 
have required that all convicted sex offenders provide DNA 
samples to be catalogued. In addition to that, 34 States 
require persons convicted of many other violent felonies to 
provide samples; 26 States have a similar requirement for 
juvenile offenders; 18 States are now on-line with the CODIS 
system, as I understand it; and just last year 9 States have 
added a wide variety of new offenses to the list of crimes 
conviction for which require a sample to be provided. New York, 
for example, last year went from 21 crimes to 107 crimes.
    I think we have already talked about the practical 
implications of those policy changes. It is extraordinarily 
expensive and complicated to ensure that, notwithstanding the 
law requiring it, the system actually does collect those 
samples and properly catalogues them. In addition, Alaska, 
Colorado, and Florida have extended the requirement to submit 
DNA samples to certain probationers, with Colorado and Florida 
also adding burglary to the list of offenses for which a DNA 
sample is required. In West Virginia, enactment adds to the 
list offenses that include extortion, involuntary manslaughter, 
burglary, counterfeiting, certain larceny and arson crimes. In 
New Jersey, my colleagues have added homicide, assault, 
kidnapping, and luring offenses committed by adults or 
juveniles. California will collect samples from qualifying 
offenders who are convicted in other States. And Georgia law 
expanded the list of sex crimes that require a sample. Other 
States made procedural changes in collection of samples. Among 
them, measures in Arizona, Colorado, Georgia, and Iowa 
requiring that samples be collected from qualifying offenders 
before they are released from custody.
    I think every State is in essence heading in that 
direction. That is the important thing that I wanted to 
emphasize today. In particular in my State, in Connecticut we 
have been collecting samples from sex offenders for a long 
time. We are also blessed with the leadership of Dr. Henry Lee, 
who has already been mentioned here today, who is the head of 
our crime lab in Connecticut and is our former commissioner of 
public safety, and also of O.J. fame. I think everyone knows 
Dr. Lee. But he has really been the spiritual leader for this 
concept in Connecticut and he has convinced many skeptical 
colleagues of mine that this is as important for victims as it 
is for offenders who may be wrongfully convicted.
    Just last year, in fact, with this in mind, Connecticut 
retroactively extended backward its statute of limitation for 
sex offenses, reaching back 20 years to the advent of DNA as a 
technology, to ensure that persons, where these crimes were 
reported in a timely fashion to the police, if they are 
apprehended now as a result of a DNA identification, the 
prosecution can go forward with or without a John Doe warrant. 
I think that is an important change. And at the same time, in 
the same bill, Connecticut made it clear that we would no 
longer have a limitation on a request for a new trial where the 
basis for that request is new DNA evidence. In other cases 
there is a 3-year limitation on the time for which people can 
request a new trial after conviction.
    This year Connecticut considered, and our session has just 
ended, this year we considered extending the requirement of 
collecting DNA to all convicted felons, which has been 
discussed here earlier. That, unfortunately, fell by the 
wayside. It is a tight budget year in Connecticut, as it is in 
many States, but our fiscal note on that proposal indicated it 
would cost $552,000 to test just the 4,700 offenders currently 
incarcerated in our State, and that is a half a million dollars 
we just did not have to spend. It may not seem like a lot of 
money to you, but in a tight budget which we are experiencing 
in our State, and that is Connecticut, the wealthiest State in 
the Nation, it is actually a problem. So we would welcome some 
Federal assistance in that regard.
    Mr. Chairman, the jurisdiction of this committee is 
intergovernmental affairs. I think that is a topic that the 
National Conference of State Legislatures is very concerned 
about. I want to mention a couple of considerations which I 
hope you will make as you consider the concepts being discussed 
today.
    First of all, keep in mind that flexibility ought to be the 
hallmark of any policy change on the Federal level, such as the 
ones that are being discussed today.
    Keep in mind that sex offender statutes, probation, parole, 
the concept of juvenile all have different meanings in 
different States. So when persons talk about parole in 
Connecticut, it is a very, very different concept than when it 
is being discussed in New York, just for example. In 
Connecticut, juveniles are persons under the age of 16. But we 
are one of only three States that treat all 16 year-olds as 
adults. And when Federal mandates have a one size fits all type 
mandate, then that does create unanticipated and unintentioned 
problems around the country. Connecticut, for example, does not 
even have county government at all, and many of the proposals 
here talk about funneling money to the county government level. 
In many States prison has a different concept. In Connecticut, 
we have no county jails, we only have a State Department of 
Corrections. And so mandates, though well-intentioned, 
sometimes tend to confuse things on the ground level.
    I would point out in recent years in juvenile justice 
reform proposals, in the end, the differences that each State 
has in designing its criminal justice system have been taken 
into account. I would only encourage you to do that in this 
regard.
    And finally, I would just like to indicate that there is a 
very important role the Federal Government can play on this 
topic, and that is allowing States and localities to come 
together in national forums to compare best practices, to find 
out what is working and what is not working in other States as 
we determine what we should accept in our States.
    And just as important as the DNA technology and how to 
apply it to convicted offenders, the issue of privacy is also 
important. I think that has really been the frustrating factor 
for many State legislatures is we want to make the criminal 
justice change but we are nervous about other ways that this 
information could be misused, for example, and concerns that 
people bring forward kind of stops some of that legislation 
dead in its tracks. If we could meet on a national basis with 
Federal, State, and local policymakers and discuss ways that we 
could enact appropriate safeguards, I think that would open the 
door to the kind of widespread collection of DNA samples that 
have been discussed here today.
    I think the partnership we have forged in recent years can 
work effectively, and I look forward to helping in that regard 
in any way I can or the NCSL can. Thank you very much.
    [The prepared statement of Mr. Lawlor follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.061
    
    [GRAPHIC] [TIFF OMITTED] T8050.062
    
    [GRAPHIC] [TIFF OMITTED] T8050.063
    
    [GRAPHIC] [TIFF OMITTED] T8050.064
    
    [GRAPHIC] [TIFF OMITTED] T8050.065
    
    [GRAPHIC] [TIFF OMITTED] T8050.066
    
    [GRAPHIC] [TIFF OMITTED] T8050.067
    
    [GRAPHIC] [TIFF OMITTED] T8050.068
    
    Mr. Horn. Thank you very much for coming.
    We now move to Keith Kenneth Coonrod. He is Chair of the 
Consortium of Forensic Science Organizations, New York State 
Police Forensic Investigation Center. I take it you are 
director of toxicology, drug chemistry, trace and breath 
testing in the Forensic Laboratory System. The Consortium of 
Forensic Science Organizations comprises seven leading forensic 
organizations. You might want to spell those out. So, we are 
glad to have you here. You have a lot of authority and academic 
recognition.
    Mr. Coonrod. Good morning, Mr. Chairman and members of the 
subcommittee. I would like to thank the subcommittee for this 
opportunity to provide testimony here today regarding the role 
of State and local crime laboratories and how they interact 
with the Federal Government.
    My name is Keith Coonrod, I am currently employed by the 
New York State Police as Director of Toxicology, Drug 
Chemistry, Trace and Breath Testing in the Forensic Laboratory 
System; and I am here as the Chair of the Consortium of 
Forensic Science Organizations which is comprised of seven 
leading forensic organizations, which include: The American 
Society of Crime Laboratory Directors [ASCLD], which represents 
over 400 crime laboratory managers and directors from local, 
State, and Federal crime laboratories, and I am currently 
President of this organization; the American Society of Crime 
Laboratory Directors/Laboratory Accreditation Board [ASCLD/
LAB], which is the accrediting body for forensic crime 
laboratories for which I am currently an ex officio member of 
the Board of Directors and have been team captain responsible 
for many inspections of laboratories undergoing the 
accreditation process; the International Association for 
Identification [IAI], which is the oldest and largest forensic 
identification association in the world; the American Academy 
of Forensic Sciences [AAFS], which is a professional 
organization representing numerous forensic specialties such 
as: criminalistics, engineering sciences, jurisprudence, 
odontology, pathology and biology, physical anthropology, 
psychiatry and behavioral sciences, questioned documents, 
toxicology, and a multi-disciplinary general section; the 
National Association of Medical Examiners [NAME], which 
represents medical examiners, coroners, and other physicians 
who conduct death investigations; the National Forensic Science 
Technology Center [NFSTC], which is dedicated to assisting 
forensic science facilities to achieve the highest quality of 
operations; and finally, the National Center for Forensic 
Science [NCFS], which provides research, education, training, 
tools and technology to meet the needs of forensic science, 
investigative, and criminal justice agencies.
    While the public thinks of forensics as DNA, it is 
essential that the committee understand that this is just one 
of the many tools available to the criminal justice community 
by our forensic laboratories. Although DNA is indeed an 
important discipline, forensic science is broadly defined as 
``the examination of all evidence submitted by criminal justice 
agencies to forensic laboratories for the purpose of 
determining how that evidence pertains to the law and/or the 
courts.''
    Forensic laboratories support the criminal justice 
community by offering services in clandestine laboratory 
investigations, explosives analysis, controlled substance 
analysis, firearms examinations, alcohol analysis, tool mark 
examinations, toxicology, impression evidence, arson analysis, 
trace evidence examinations, death investigations, digital 
evidence, physical match, crime scene investigations, training, 
as well as biological examinations, including DNA.
    While over 90 percent of all forensic examinations are 
conducted by local and State crime laboratories in the United 
States, it is important that local, State, and Federal 
laboratories maintain a close working relationship with one 
another. There is no single local, State, or Federal laboratory 
that can possibly meet the vast needs of the criminal justice 
community. Currently, there exists a close working relationship 
between the Nation's local and State laboratories and the 
various Federal laboratories. Let me provide you with just a 
few examples.
    The DEA laboratory provides a training course for new 
forensic drug chemists from local and State crime laboratories. 
This supplemental training provides valuable information as 
well as advanced technical information gathered from DEA 
laboratories. The DEA also provides assistance to local and 
State laboratories in many other drug related issues, such as 
clandestine laboratory seizure training, awareness in newly 
encountered drugs, and technical support in cases involving 
drugs rarely encountered or analyzed.
    The New York State Police Laboratory recently sponsored a 
Northeast Regional Quality Assurance Seminar with assistance 
from the FBI Laboratory. Attendees from Maine to New Jersey 
enrolled in this course which was designed to assist non-
accredited laboratories with the identification and 
implementation of numerous quality principles and practices. 
The classes were held at the New York State Police Forensic 
Investigation Center, and taught by instructors from New York 
State Police as well as FBI and instructors from other 
organizations.
    With local and State laboratories providing the backbone of 
forensic analysis for our Nation's criminal justice community, 
insufficient resources are available to these laboratories to 
meet demands. These laboratories must focus their limited 
resources on examination of cases versus extended training or 
research and development of new technologies critically needed 
by the forensic community. While Federal laboratories play a 
major role in providing valuable assistance in areas such as 
extended training, research and development, it remains the 
mission of our Nation's local and State laboratories to support 
the needs of the criminal justice agencies.
    Finally, Mr. Chairman, I would like to thank the members of 
the committee for passing the Paul Coverdale National Forensic 
Science Improvement Act. What I have tried to bring out to this 
committee is the importance of, as Mr. Scheck said, a very 
broad support. As I have said, forensic science is made up of 
not only DNA, but of many other sections. For instance, our 
laboratory, I am in charge of the Trace Section, evidence that 
we see today did not exist 5 years ago for potential DNA 
analysis. Today, we get in bags of vacuum cleaner bags and 
which we are being asked to look for a particular hair that 
might be one of thousands of hairs to determine if it is 
probative for subsequent DNA analysis, and this is being done 
by the Trace Section.
    So the point that I would like to make to this committee is 
the importance of broad support of forensics to all 
disciplines, not just DNA, because DNA affects the complete 
laboratory which is made up of multiple disciplines.
    As you know, we are working toward appropriating the law 
this year, and appreciate your support in this matter. Again, 
Mr. Chairman, thank you for the opportunity to testify before 
the committee, and I look forward to your questions.
    [The prepared statement of Mr. Coonrod follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.069
    
    [GRAPHIC] [TIFF OMITTED] T8050.070
    
    [GRAPHIC] [TIFF OMITTED] T8050.071
    
    Mr. Horn. Thank you very much. That is very helpful because 
I do want to get in to that, with Mrs. Maloney, in terms of the 
forensics and the laboratories that you have seen.
    We will now go to Dr. Jamie Downs, the director and chief 
medical examiner of the Alabama Department of Forensic Science.
    Dr. Downs, glad to have you here.
    Dr. Downs. Thank you, Chairman Horn and distinguished 
committee members, for the privilege of coming before you 
today. As director of one of the few fully integrated Forensic 
Laboratory-Medical Examiner systems in our country, and as a 
practicing Forensic Pathologist myself, I hope to bring to you 
a perspective from the State and local level on the status of 
our Nation's forensic laboratory systems.
    An ideal forensic laboratory requires three things: 
objectivity, competent and dedicated employees, and resources.
    The creation of Alabama's forensic system was tied, in 
large part, to a tragic miscarriage of justice related to 
evidence--DNA evidence. The 1931 cases of nine young Black men, 
known as the Scottsboro Boys, who were unjustly convicted of 
rape, pointed out the absence of a competent and impartial 
forensic agency within our State. In 1935, Alabama's 
Legislature changed that by creating our department to serve as 
independent and unbiased scientists charged with the collection 
and analysis of scientific evidence. Our scientists are 
certified as peace officers and have the power to enter any 
crime scene in the State for the purpose of securing evidence. 
All reports of our investigations, both on the scene and in the 
lab, are public record. These reports clearly indicate factual 
results and scientific expert options based on those results.
    If I could, allow me to walk you through a typical homicide 
case recently broadcast on television. I have submitted a copy 
for introduction into the record, if that is acceptable.
    In May 1994, the badly beaten body of an 85 year-old woman 
was found floating in a pond. Her elderly son was the suspect. 
At the scene, our department recovered a cigarette butt. The 
evidence was taken to our DNA section and later proved to have 
the son's DNA on the surface. At trial, the defense challenged 
the evidence, questioning how it had been collected, stored, 
transported, and analyzed. Because this case had been handled 
properly, there was no difficulty in chain of evidence or in 
having the criminalistics expertise on hand for pre-trail and 
courtroom presentation. Because I had found that cigarette butt 
at the scene and personally transported it to the lab, I was 
able to not only testify as to the handling of the evidence, 
but also to produce on the stand a scene photograph of the 
evidence. The successful prosecution of this case hinged on 
that cigarette butt. That was possible because the local 
laboratory had done its job.
    This story is not unique, it happens every day in medical 
examiner and forensic laboratories across our country. It 
happens because good people who care do their jobs. On the 
whole, you will find no finer group of employees than our 
Nation's forensics personnel.
    Our difficulty then is not with a question of neutrality or 
ability, rather it has been a question of resources--more 
accurately, a lack of resources. My parents taught me a long 
time ago you get what you pay for. If you want quality, you 
have to be prepared to pay for it. In the business world, 
income must meet expenses in order to make ends meet. We have 
to make ends meet in the realm of forensic sciences and we can 
only adjust three things: quantity, quality, and timeliness. 
Quantity of evidence is beyond our control. Cases are made 
based on evidence coming in and being analyzed. Quality is not 
on the table. One does not strive for mediocrity in any area, 
particularly when someone's life literally hangs in the 
balance. That leaves only timeliness. We work as many cases as 
quickly as we can, but our caseload has grown while our budgets 
have stayed level. The result is staggeringly large backlogs, 
delays in issuing the reports--6 months in drug cases, 12 
months in toxicology, 21 months in DNA.
    Competent, complete, and timely analysis of forensic 
evidence is expensive, very expensive. My department's annual 
budget is approximately $15.5 million for some 80,000 cases, or 
about $195 per case. In the area of DNA analysis, our agency 
spends approximately $140 per DNA sample analyzed, about $25 
for each CODIS database sample, and over $135,000 for each cold 
CODIS hit. Is it worth it? Mrs. Smith spoke to that issue. I 
cannot answer the question except to say that for a victim or 
their family the answer would be obvious.
    Consider, if you would, the plight of a father who came to 
me recently to ask if evidence in the rape of his 12 year-old 
daughter had shown who had violated his little girl. Imagine 
his surprise when I told him that the 6-months he had already 
been waiting was really not all that long, since the average 
wait time in Alabama was almost 2 years for DNA analysis. 
Consider if, for purely financial reasons, we had to limit the 
number of samples our lab could process in a case. In this 12 
year-olds rape, two pair of panties had been recovered. Suppose 
we only could look at one. I hope we get the right one.
    This case points out the importance of skilled crime lab 
analysts available locally to screen and process evidence in 
order to maximize the value of what evidence is collected at 
the crime scene. Good scene work is the evidence of all 
forensic sciences and all medical examiner work, including, but 
not limited to, DNA evidence. If we learned nothing else from 
the case of the people v. O.J. Simpson, we learned that the 
existence of evidence alone is not sufficient. All evidence 
must be collected, stored, and analyzed competently, 
expeditiously, and impartially if our court system is to work 
as designed--that is, to ensure justice.
    We must recognize and accept the old adage that one cannot 
be all things to all people. Federal support should be directed 
at complimenting rather than supplanting the State and local 
forensic efforts. Crime scene work is best handled on a local 
basis. If we are to ensure that the public, law enforcement, 
district attorneys, defense attorneys, judges, and the courts 
have fair access to the truth, we must strive for sufficient 
resources at the State and particularly the local level to 
provide personnel, facilities, and equipment.
    Now, rarely, there are needs for highly specialized tests. 
A system should not be inverted to work to the rarity, but 
should maximize services provided to the most people. We must 
first ensure that the local and State forensic laboratory has 
the ability to meet the needs of the population served. In an 
area of limited resources, we must target available funds where 
they will do the most good. Put that another way, if 99 out of 
100 forensic cases are delayed due to the inability to perform 
toxicology analysis and 1 out of 100 is due to the lack of DNA 
infrastructure, then we should address the greater need first. 
Put the money where it will do the most good for the most 
people.
    The recently passed Paul Coverdale National Forensic 
Sciences Improvement Act directs significant Federal assistance 
to State and local crime labs but is as yet unfunded. The real 
strength of this law is that it requires States to formally 
adopt a plan to deal with local and Statewide forensic and 
medical examiner issues as a condition of receiving funding. 
For the first time States will have to implement a plan to deal 
with all involved interests within a State. Now that is a 
reform that creates efficiency in government.
    I humbly suggest we not stop there. I believe a National 
Commission on the Future of Forensic Laboratories should be 
established. Said commission should allow representatives of 
local, State, and Federal crime lab and medical examiner 
communities to come together with various nationally recognized 
independent scientific authorities, the judiciary community, 
district attorneys, defense bar, and investigating agencies. 
This would allow the various States and concerned Federal 
entities to create a broad vision for the future of all 
forensic laboratory and medical examiner concerns nationwide. 
In working together, we can successfully complete the 
fundamental mission of all crime laboratories and medical 
examiners.
    My department's mission statement is simple: To strive for 
excellence in all endeavors; to seek to serve as stewards of 
the public trust; to find the truth, whatever that might be; 
and not to yield to forces which would attempt to compromise 
the former. To strive, to seek, to find, and not to yield. With 
full funding for the Coverdale Act and the DNA Backlog 
Elimination Act of 2000, a lack of resources will continue 
injustice through continuing delays in evidence analysis. We 
have the desire. We have the ability. We lack the resources. 
The Nation's crime labs are literally drowning in a sea of DNA 
and all other types of evidence. We ask for your help before we 
go under for the final time. Thank you very much for your 
attention on this important matter.
    [The prepared statement of Dr. Downs follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.072
    
    [GRAPHIC] [TIFF OMITTED] T8050.073
    
    [GRAPHIC] [TIFF OMITTED] T8050.074
    
    Mr. Horn. Thank you very much. That is very helpful. And I 
will get back to your proposal on a National Commission on the 
Future of Forensic Laboratories when we go to the questioning.
    We now have Mr. Robert S. Conley. He is chairman of the 
American Society of Crime Laboratory Directors and the 
Laboratory Accreditation Board, and he is also Director of the 
Indiana State Police Laboratory System.
    Mr. Conley, welcome.
    Mr. Conley. Thank you and good morning. I am speaking to 
you this morning as the chairman of the American Society of 
Crime Laboratory Directors, Laboratory Accreditation Board 
[ASCLD/LAB].
    Our accreditation program was initiated by the American 
Society of Crime Lab Directors. The first accreditation 
occurred in 1982. In 1984 the Laboratory Accreditation Board, 
by plan, became independent of ASCLD, assuring autonomy in the 
management of the accreditation process.
    During the program's first 14 years, 131 laboratories were 
accredited. During the last 5 years, 83 additional labs have 
become accredited, bringing the total to 214. Of these, 199 are 
within the United States. At this time there are 21 
applications pending from new laboratories entering the 
program, and 15 more applications are anticipated by the end of 
the year. At year's end, we hope to have approximately 235 
laboratories accredited. There are, however, over 200 labs 
still not accredited.
    I would like to briefly characterize the ASCLD/LAB 
accreditation program this morning. An accredited laboratory 
must use internally validated written procedures, maintain 
training programs in each functional discipline, and competency 
test new employees before they perform casework. Reports are 
subject to systematic technical review to assure that findings 
and conclusions are supported by case file documentation. 
Scientists are subject to educational standards and they must 
participate in a proficiency testing program. The Accreditation 
Board monitors the laboratory's proficiency test performance. 
The security of the laboratory and the integrity of evidence 
under its control must be demonstrated, precluding its 
contamination or deleterious change. An accredited laboratory 
must have a functional quality system that ensures appropriate 
corrective actions remediate any deficiency identified by 
proficiency testing, casework review, audits, or any other 
means.
    These requirements and a host of others are verified by a 
stringent external audit conducted by trained inspectors who 
are currently employed in accredited laboratories. A laboratory 
must audit and report its continuing compliance with the 
program standards. The Accreditation Board reserves the right 
to inspect a laboratory upon an indication of noncompliance. It 
has a procedure to consider evidence of noncompliance and to 
impose sanctions, including the revocation of accreditation.
    Regarding DNA specifically, ASCLD/LAB has historically 
supported the will of Congress to assure the quality of DNA 
analysis performed in accredited laboratories. Upon passage of 
the DNA Identification Act of 1994, our program standards were 
modified to incorporate the requirement to comply with 
guidelines developed by the Technical Working Group for DNA 
Analysis [TWGDAM]. Upon publication of the Quality Assurance 
Standards for Forensic DNA Testing, those standards were 
incorporated in place of the TWGDAM guidelines. Additionally, 
the board entered into a Memorandum of Understanding with the 
FBI laboratory to conduct an approved audit of the Quality 
Assurance Standards to document each accredited lab's 
compliance with the congressional intent to ensure the 
integrity of the forensic analysis of DNA and the Combined 
Offender DNA Indexing System.
    In closing this morning, I feel I must comment on the 
funding matter. As you can imagine, with the increased reliance 
on forensic science by the criminal justice community, we have 
received an influx of new applications and an increased 
obligation to periodically inspect accredited laboratories; 
coupled with the board's intention to attain recognition as an 
international standards organization accrediting body, the 
board is at a crossroads financially. While we recognize that 
the Paul Coverdale National Forensic Sciences Improvement Act 
requires grant recipients to be accredited or to prepare and 
apply for accreditation, that act is not funded. Laboratory 
budgets remain insufficient to meet criminal justice needs. We 
therefore believe that the act should not only be funded, but 
should include funds to be set aside supporting the 
accreditation process in addition to the operation of the 
laboratories.
    Mr. Chairman, this morning I would like to submit a copy of 
our accreditation manual for the expressed purpose of a review 
by the committee. I will remain available to answer any of your 
questions pursuant to that review. Thank you.
    [Note.--The publication of the American Society of Crime 
Laboratory Directors entitled, ``Laboratory Accreditation Board 
Manual,'' may be found in subcommittee files.]
    [The prepared statement of Mr. Conley follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.075
    
    [GRAPHIC] [TIFF OMITTED] T8050.076
    
    Mr. Horn. Thank you very much. That document will be put in 
the record at this point, without objection. I think that would 
be very helpful to a lot of people who would want to study that 
manual that you have just presented.
    We now have the last presenter, Mr. Kevin L. Lothridge. He 
is deputy director, director of strategic development of the 
National Forensic Science Technology Center. We are glad to 
have you here.
    Mr. Lothridge. Great. Good afternoon, Chairman Horn, and 
members of the subcommittee. I am pleased to have this 
opportunity to discuss with you my organization's role in 
assuring the quality of the work of the Nation's crime 
laboratories and to act as a resource.
    In a past life, I was the director of an accredited crime 
lab, and past president of the American Society of Crime Lab 
Directors [ASCLD]. I am also a Diplomat of the American Board 
of Criminalistics, the personal certification board.
    The NFSTC was established by the American Society of Crime 
Lab Directors in 1995 and began operating in July 1996. It is 
an independent not-for-profit organization located in Largo, 
FL. Its operations are supported by Federal funding and by 
recovery of costs directly from client laboratories.
    The vision of the NFSTC is that all forensic science 
services will have the complete confidence of users and the 
community. And our mission is to help all of forensic science 
achieve the highest quality of operations. It achieves this by 
providing services such as accreditation of forensic DNA 
testing facilities to the congressionally mandated national DNA 
standards, provision of certified standard materials to 
validate test methods and the competency of analysts, and 
training and education programs to ensure that the analysts 
have the skills and knowledge to conduct their tests.
    Good science is the bedrock of service quality in crime 
laboratories. However, good science does not just happen. It 
requires substantial resources to provide the physical plant, 
scientific equipment, and skilled personnel required to protect 
the integrity of the evidence, ensure that it receives timely, 
fault-free analysis, and ensure that the subsequent testimony 
is fair and accurate.
    Having reviewed the operation of over 100 of the Nation's 
crime laboratories in the last 5 years, I can tell the 
subcommittee that there is a very wide range of levels of 
resourcing and performance. Service quality demands that 
sufficient resources are provided to ensure that these 
standards continue to be met. Maintenance of quality also 
requires that appropriate operational infrastructures be put in 
place.
    The forensic science community has been working toward the 
use of a triad of processes to ensure the quality of work that 
is performed in crime laboratories across the country. This 
triad of accreditation, individual certification, and 
competency testing has made the profession stronger. 
Accreditation addresses the systems that are in place in the 
laboratory. Certification addresses the skill and knowledge of 
the analyst. Competency testing measures the ongoing 
performance achieved by the accreditation and certification.
    We are fortunate that there already exists both a well-
developed accreditation program provided by the American 
Society of crime Lab Directors/Laboratory Accreditation Board 
and a well-developed certification program provided by the 
American Board of Criminalistics. However, these organizations 
are currently funded by fees and were established within the 
community of service providers and experience all the resource 
related issues that such organizations face.
    In contrast, the NFSTC is an entirely independent 
organization, it does not have a conflict of interest by also 
being service provider-directed, and has a staff of full-time 
professionals. The NFSTC's services compliment and provide 
vital support to the accreditation and certification programs 
of ASCLD/LAB and the ABC. NFSTC also provides the vital third 
step in the quality triad by providing competency standards to 
crime laboratories.
    The NFSTC is also providing leadership in bringing together 
organizations to avoid needless duplication and to leverage 
effective contributions to quality. For example, we are a 
member of the Forensic Resource Network being institutionalized 
by the NIJ Office of Science and Technology to assist State and 
local crime laboratories. We cooperated with the FBI and ASCLD/
LAB to develop a uniform checklist for auditing DNA 
laboratories. And we are using some of our funding to provide a 
national DNA laboratory audit service to laboratories in the 
CODIS database.
    Mr. Chairman, I have attempted to describe for the 
subcommittee the role the NFSTC plays in assuring the work of 
the Nation's crime laboratory has a solid foundation of good 
science. I believe that now and in the future the scientific 
analysis of physical evidence will aid more investigations and 
enhance the criminal justice process.
    However, good science is not cheap. It is imperative that 
funding is available to make sure that forensic laboratories 
are accredited and staffed with well-trained, competent, and 
professional analysts. The NFSTC has a history of assisting the 
community in the aforementioned areas. Laws like Pubic Law 106-
561, the Paul Coverdale National Forensic Science Improvement 
Act, and Public Law 106-546, the DNA Backlog Elimination Act of 
2000, can assist this. It is vital that funding authorized by 
these laws be fully appropriated so that State and local 
laboratories receive the funding they need to provide timely, 
fault-free, and necessary services to the public safety of 
their citizens.
    The NFSTC wants to be a resource to this subcommittee on 
matters concerning forensic science. And I would be pleased to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. Lothridge follows:]
    [GRAPHIC] [TIFF OMITTED] T8050.077
    
    [GRAPHIC] [TIFF OMITTED] T8050.078
    
    [GRAPHIC] [TIFF OMITTED] T8050.079
    
    Mr. Horn. Thank you very much.
    We are now going to go to general questions for all of you 
as a group or individually. It is going to be 5 minutes per 
round. I will start with Mrs. Maloney, 5 minutes, then I will 
take 5 minutes, then we will have a second round.
    The gentlewoman from New York.
    Mrs. Maloney. Thank you, Mr. Chairman. I would like to ask 
David Boyd, has NIJ done any research as to standardizing 
evidence collection kits? And do you believe that the 
laboratories would be more effective and efficient if they were 
all working off the same evidence collection standards?
    Mr. Boyd. NIJ has over the last 2 years published a series 
of guides, beginning at the direction of the Attorney General, 
with a guide on the collection of evidence at homicide scenes. 
We now have produced additional guides for crime scenes in 
general, for the handling of eye witnesses, explosion and arson 
investigations. These guides represent a consensus of what 
needs to be done at the crime scene in collecting and 
preserving forensic evidence.
    Each of the States inevitably adjusts these in keeping with 
the laws regarding evidence in their jurisdictions, and they 
have to do that. But I think it is imperative that the 
community begin to think very extensively about how to develop 
a series of appropriate guides that establish what the minimum 
standards are for the collection, preservation, and analysis of 
forensic evidence.
    Mrs. Maloney. Keith Coonrod, do you agree, and would you 
like to elaborate? Would the process be easier if there were 
standardized evidence recovery practices?
    Mr. Coonrod. I can speak for New York State because we did 
standardize the kit. For a while we had two kits and we have 
now standardized that to one kit now. And that has been 
beneficial to the laboratories in New York State having one 
type of kit where we know exactly what items are to be 
collected, how they are to be collected, what the instructions 
are within that kit for the collecting agency. So, from the 
perspective of one State's view, absolutely it has been very 
beneficial.
    Mrs. Maloney. And you mentioned the backlogs. Are they 
throughout all areas, or are they specific just to DNA testing?
    Mr. Coonrod. Backlogs are being exhibited throughout all 
areas. And as I made as a reference, DNA affects many areas. 
For instance, one of them I used as an example, trace evidence, 
where we are now getting in vacuum cleaner bags, our trace 
evidence section must go through those vacuum cleaner bags 
because what is considered to be potential DNA evidence now is 
much different than it was 5 years ago. So we must identify 
hairs, full hairs with roots, partial hairs, and determine are 
they suitable for DNA analysis, and if so, make some decisions 
as to whether we can possibly even consider analyzing all of 
this potential evidence that exists. So DNA affects many 
sections of the laboratory and, hence, there are many backlogs 
of all sections.
    Mrs. Smith had mentioned the SANE nursing. There are a lot 
of other issues when we are talking about sexual assaults or 
rapes dealing with these rape kits, and that also includes drug 
facilitated rape or sexual assault. There are a lot of other 
issues that are being generated as a result of DNA and sexual 
assault, etc., and these impact all of our laboratories. New 
York State does not have the resources to do DFR testing, drug 
facilitated rape. So there are backlogs across the broad 
spectrum.
    Mrs. Maloney. Many of you talked about backlogs. Mr. Scheck 
in his testimony talked about how he worked with the police 
commissioner in New York City to attack the backlog. They 
outsourced it and they still could not attack the backlog even 
with the private resources and the public resources. And he 
mentioned earlier that you should really attack the evidence 
between 7 or 10 days to have the best effect. So we have this 
wonderful tool but we are not really using it efficiently 
across the Nation. I would like to hear if there are any ideas 
of how we can address this. Anyone's comment?
    Mr. Adams. I would like to respond to that, if I might. To 
give you one idea of what might be done, research and 
development has shown over the years that we have been able to 
reduce the time it takes to perform DNA testing. When we began 
performing DNA testing in the late 1980's it would take 6 to 8 
weeks to perform one test. Now that has been reduced to days. 
So, therefore, the research and development moneys that have 
been allocated to DNA efforts have greatly reduced the amount 
of time it now takes. And as Dr. Boyd mentioned in his 
statement, additional research in the area of chip technology 
is also looking to reduce the amount of time it takes.
    But I might point out that is the amount of time it takes 
to do the DNA process alone. That does not count toward the 
time it takes to identify a stain or an item suitable for DNA 
testing. When you are talking about hundreds of items of 
evidence submitted in one particular case, it may take days or 
weeks to find that one particular stain that then can go 
through DNA testing.
    Mrs. Maloney. Given the fact that it takes such a long 
time, and again going back to Mr. Scheck's testimony, he 
suggested that possibly we should have a State or a Federal 
standard that you do certain crimes first. Obviously, if you 
are in prison, do not do the DNA check. But many States are 
doing DNA checks of prisoners first. Should we not have a 
Federal standard that those on parole be attacked first for the 
backlog? I just wanted your comments on that, or anyone's 
comments on that.
    Mr. Adams. I have known Mr. Scheck now for well over a 
decade and I can tell you that he and I have not always seen 
eye-to-eye on things. But today he and I see eye-to-eye on 
almost everything. And his priority list is exactly right. The 
priorities of reducing the backlogs but not forgetting the 
cases that are happening today and being able to attack those 
cases right now, his priority of seeing mitochondrial DNA 
testing placed in the crime laboratories at the State and local 
level, those are proper priorities that should be addressed.
    Mr. Horn. Dr. Boyd and Mr. Adams, I would like to know how 
much money is the Federal Government providing to the States 
and local forensic laboratories.
    Mr. Boyd. The National Institute of Justice will have this 
year a total of $30 million which is available directly to 
State and local forensic laboratories, and that is for DNA and 
general forensic work as well. Some of that is earmarked but it 
all goes to States for forensic applications. In addition to 
that, we have just received authority to reprogram $25 million 
of asset forfeiture money to help with the CODIS backlog. That 
also will go to the States. So that gives you a total of about 
$55 million this year which will go to State and local 
laboratories. That is far and away the largest amount ever 
provided in a year to State and local crime laboratories.
    Mr. Horn. Any comments on that, on the money? Is it too 
much, too little, or what? It is always not enough, right?
    Mr. Scheck. I would say--I'll speak for these gentlemen, I 
am sure they will not disagree with this--it is not nearly 
enough. But I think that the issue is somehow directing the 
priorities so that you get the most return for the investment. 
One of the things that I am sure Mr. Asplen and Dr. Boyd could 
testify to is that some of the backlog money, the $14.4 million 
that was being sent out, I know that NIJ was encouraging State 
and local labs to do more of the unsolved cases. I think, what 
was it, Chris, the initial request was that 2 percent of the 
appropriations go toward unsolved cases. And when we are 
talking about the unsolved cases, we are talking about those 
rape kits like Debbie Smith's rape kit. And they argued with 
NIJ and they said given all our priorities, given the pressures 
that the States are putting on us to show some results for 
convicted offender backlog, we cannot do 2 percent, we have to 
have it at just 1 percent.
    So there has to be a way of redirecting the priorities. It 
is very true what they are saying about more trace evidence now 
is going into the laboratories. We need training on how people 
can identify which are the appropriate stains so they can be 
more efficient. But I again have to come back to this point--
what can be more efficient than typing those rape kits because 
we know that those sexual assault cases are going to give the 
identity of the semen donor. And there is no more powerful 
application of DNA than those untested rape kits.
    Mr. Horn. Well let me ask Dr. Boyd, do we have a training 
kit for laboratories that has been worked out by the National 
Institute of Justice so that you would have some uniformity 
across the country? Science is science and how do you best deal 
with it? I think everybody here has given the impression of 
priorities. If there are priorities that you heard that you do 
not like, and if there are others that you want to put in, let 
me know right now.
    Mr. Boyd. On the training program, there are a couple of 
issues with training. The FBI offers, I think, probably the 
best DNA training available in the United States. But they are 
also constrained when it comes to resources. It costs some 
amount of money to train these personnel, it costs some amount 
of money to get those personnel to a place where they can be 
trained. Even when they go out to the field to provide the 
training, you are talking about laboratories that are 
overwhelmed that have to free up people to go to the training. 
We have, if I can steal from Chris here, we have developed a 
series of compact disks, CDs on DNA evidence. This is actually 
aimed at every police officer so that, ideally, it provides 
reasonable training for the first person who is on the scene so 
that person knows how to protect the evidence and with any 
amount of luck does not destroy the evidence before it can get 
to the crime laboratory and be analyzed. This CD, interestingly 
enough, has now been requested by the British who like it and 
are interested in using it.
    One other point I think it is important to make. We have 
had a number of people who have talked about DNA evidence and 
other sources of evidence. It is important to remember that DNA 
represents less than 3 percent of all the material that comes 
into crime laboratories for analysis. It is an important 3 
percent because it is so powerful and has so great a payoff 
that its payoff is out of proportion to the amount of the 
evidence. But it is still important to remember that the crime 
lab has to face that whole range of evidence. And so it manages 
to keep them pretty overwhelmed.
    And the last point I would make is the priority issue is a 
little bit of a chicken and the egg kind of problem. So far 
there have been 150 cold hits just by requiring the 1 percent, 
because so many States told us they simply could not do more 
than 1 percent. Nevertheless, it is also true that if we do not 
populate the database itself, then we cannot get hits when we 
do no suspect data. And if we populate that and do not do the 
no suspect analysis, then we are not going to get the hits we 
want.
    Ultimately, I think there needs to be some effort to look 
at funding both ends of this equation, because it is very much 
a sine qua non; the one is required to make the other one 
really pay off.
    Mr. Horn. My time is up. Mrs. Maloney has 5 minutes now for 
questioning.
    Mrs. Maloney. Because of the huge backlog, some of you 
testified that the statute of limitations runs out and some 
States are responding by eliminating the statute of limitations 
or other adjustments. Mr. Scheck in his testimony mentioned a 
proposed New York State law that would allow John Doe warrants 
to keep that case alive, thereby not doing away with the 
statute of limitations, which has some benefit in certain 
cases. I would like to ask Mr. Scheck to elaborate if you would 
like, but I would like each of you to state whether or not you 
think that is a good idea.
    Mr. Scheck. There are a number of different States that 
have proposals. The reason I think that my colleagues here 
might like the one in New York is that it says----
    Mrs. Maloney. Which, by the way, has not passed as yet.
    Mr. Scheck. It has not passed, it is proposed. It makes the 
State legislators put money into the crime labs to deal with 
the backlog. It is not going to do any good for anyone, 
frankly, to say let's not have anymore statute of limitations 
on rape cases. Frankly, I can think of a class of cases where 
the individual charged, is it a consent offense, DNA is going 
to be irrelevant, and you prosecute somebody 15 years later or 
some number of years later. That is not fair to anybody.
    But unless the States pass this John Doe warrant type 
statute, with additional moneys to the crime labs so that they 
can actually do the testing on these unsolved rape cases, it is 
not going to be effective. So that is what is good about the 
Silver bill is that it says we will extend the statute of 
limitations by a year or two, so as the statute is beginning to 
run out on these cases the crime labs have a tremendous 
incentive to go through all their unsolved rape kits just 
before the statute is going to expire and type all of them.
    Mrs. Maloney. I would like members of the panel to comment 
whether you support it or oppose this proposal, and why.
    Mr. Asplen. I would agree with Mr. Scheck that as a vehicle 
to bring attention, No. 1, to the issue of rape kits that are 
being thrown out in cases that we are literally losing every 
day by the thousands, it is an excellent vehicle for that, 
especially if it brings money along. I am not sure that it is 
necessarily a legal requirement in terms of actually filing the 
John Doe warrant.
    The first John Doe warrant on a DNA basis was filed in 
Milwaukee, WI, and we have had a number of them since then in 
States that do not have a statutory permission to do that. The 
John Doe warrant is not a new concept in criminal justice. We 
have been doing it for years based on a.k.a., we have been 
doing it based on physical description. It is just an 
infinitely better way of doing.
    So, again, it may not be a legal requirement. But I would 
certainly agree that as a mechanism to bring home the extent of 
the problem that we face by these cases that are being lost 
every day, I would agree with it.
    Mrs. Maloney. Any other comments?
    Mr. Lawlor. If I could just repeat what I said earlier, 
which was that in Connecticut it was not a proposal, it 
actually has become law last year. It was a retroactive 
extension backward of the statute of limitations 20 years. The 
only requirement was that the report had to be made to the 
police within 5 years of the occurrence. But assuming that 
happened, then we could indict someone today based on an 
incident which occurred 18, 19 years ago. And the reason we did 
this was because of the advent of DNA evidence where it would 
be possible to identify the person involved.
    This question of consent was discussed. Consent can always 
be a defense, obviously, in most sexual assaults, and that is a 
continuing problem. But nonetheless, we did it and it has stood 
up so far.
    Mrs. Maloney. On the costs that the chairman brought up, I 
would like to go to Dr. Downs. In your statement, I believe you 
said that there was an average of $195 per case, and 
specifically for DNA approximately $140 per sample, 
approximately $25 for CODIS database sample, and then I believe 
you stated that $135,000 for each cold CODIS. Can you explain 
the tremendous jump in price from $25 to $140 to $135,000? What 
is entailed in that amount?
    Dr. Downs. Yes, ma'am, I would be happy to. The $140 per 
DNA evidence sample, in a homicide case, a typical homicide 
case, we might have at least 10 evidence samples in that case. 
So right away you jump to more like $1,500. The numbers that 
were broken down were by the total number of cold hits that we 
have had in Alabama, which are 10. So we have taken all of the 
funds that are targeted to the DNA operation to break it down 
to show you the cost per cold hit. As more cold hits come----
    Mrs. Maloney. But $135,000 versus $25?
    Dr. Downs. That is per sample that is entered into the 
database. That is a very cost-effective thing to just put the 
clean samples into the database and store those samples in the 
computer database for later comparison purposes.
    Mrs. Maloney. OK. My time is up.
    Mr. Horn. I thank the gentlewoman. Let me note, Dr. Jamie 
Downs, director, chief medical examiner of the State of 
Alabama, I am interested in your proposal that there ought to 
be creation of a National Commission on the Future of Forensic 
Laboratories which should be established, and that the said 
commission should allow representatives of local, State, and 
Federal crime laboratories and medical examiner communities to 
come together with various nationally recognized independent 
scientific authorities and the judiciary, the district 
attorneys, the defense bar, the investigating agencies. I know 
Dr. Downs is for it. Anybody else? Any concerns one way or the 
other, to get them all in the room? Would that be a worthy 
endeavor?
    Dr. Boyd.
    Mr. Boyd. I think with a properly drawn charter that there 
are significant advantages in bringing together the broad 
community to address any of these issues that are of concern to 
the field. We have had a great deal of success I think with the 
National DNA Commission in looking very broadly at DNA issues 
separate from all of the institutional imperatives. And so I 
think there is a great deal to be said for a similar kind of 
approach.
    Mr. Horn. Now, as I remember, the Attorney General of the 
United States often brings that type of a conference together. 
Sometimes it is the President through a White House this or 
that, like a White House Conference on Youth. I have been to 
that one. Do you think the Attorney General might have an 
interest in doing that, because it is focused on a particular 
area that is strictly justice?
    Mr. Boyd. I would have to refer that to the department.
    Mr. Horn. Well we might make it a recommendation in our 
report to the House.
    Mr. Asplen. Mr. Chairman, from the perspective of the 
National Commission on the Future of DNA Evidence, I think the 
potential for that kind of deliberative body, it is important 
for a number of reasons. In many respects, the importance of a 
commission like that is as much the process as anything, in 
that I guess one of the overriding philosophies behind this 
commission, the DNA Commission, was how do you maximize the 
value of DNA, its investigative value, while at the same time 
engender public trust in the system. The fact that we were able 
to, on a national level, in a very open forum, discuss 
important issues like privacy, like funding, and even some of 
the scientific issues I think were very important and 
ultimately enabled us to advance things even more quickly. It 
enabled us to integrate the technology more quickly.
    Our ability, for example, when arresting testing first came 
up, it was a very touchy subject. But at that time, the 
discussion was being held on CNN or on Larry King Live one 
night with Commissioner Safer, the next night with the ACLU. 
When the Attorney General came to the commission and said I 
would like you folks to discuss this, the playing field was 
leveled and the public had an opportunity to hear what was 
going on and to participate in it. And I think the nature of 
the process itself is incredibly important.
    I think the more tangible benefits, though, I think are 
important also. We would not be really talking that much about 
backlog reduction through outsourcing if the commission had not 
started to make that recommendation 3 years ago. The community 
had talked about it, the forensic community had talked about 
it, but we had not set it forth as a proposition. And I think 
that was one of the great accomplishments of the commission.
    Mr. Horn. Now there is a commission right now with some 
members on it, is there?
    Mr. Asplen. The National Commission on the Future of DNA 
Evidence is still in existence; however, its charter expires in 
August. We have existed for 4 years now and that charter will 
expire.
    Mr. Horn. Does the Attorney General appoint those 
individuals to that commission?
    Mr. Asplen. No, they were not appointed by the Attorney 
General. It was a commission created by the Attorney General, 
it was administered through the National Institute of Justice, 
the appointees were made through the Director of NIJ, at that 
time it was Director Travis.
    Mr. Horn. I have an interest in this because Norville 
Morris, who I think a lot of you know, a very distinguished 
lawyer in the University of Chicago Law School, also Robert 
Kutak, he is no longer alive but he was one of the founders, 
and I just tagged along with them, and we created the National 
Institute of Corrections at the request of Chief Justice 
Burger. He called us in and said, ``For Heaven's sake, try to 
get the States to get up to the standards that we have in the 
Federal Bureau of Prisons.'' And we did that. We went through 
11 Attorney Generals doing that. But it worked.
    We put out money. It did not take much. All you had to do 
was get a lot of them to get a cup of coffee and sit up there 
at Lake Tahoe and have great thoughts. And we did that to bring 
all the parties and stakeholders together. And things did 
change. A new generation jail was accepted by the State of 
Florida in Miami-Dade. All of that did not take very much money 
but we changed their approach to it. In fact, they issued a day 
to honor our individual in charge of jails and prisons, Mr. 
Nelson.
    So I think this type of bringing people together will help, 
and obviously the money helps, too, in the specific way of 
accreditation. And I take it you would not be giving the money 
if they had not been accredited in their laboratories; is that 
correct?
    Mr. Boyd. That is correct. They have to meet a number of 
qualification requirements and they have to be properly 
eligible for accreditation.
    Mr. Horn. That makes sense.
    Does the gentlewoman from New York have any other 
questions?
    Mrs. Maloney. I would just like to ask Mr. Scheck, earlier 
I asked Mr. Boyd and Mr. Coonrod and they said that they 
supported having a national standardized test for evidence. I 
would like to hear your comments on that. Would you have one 
just for all evidence, or just for rape victims? And I would 
like to hear any other members of the panel comment whether 
they think it would help in solving crimes, make it more 
efficient, save money, and help us find criminals faster.
    Mr. Scheck. I think the rape kits may be a good and simple 
and easy way to start. I think, as Dr. Boyd pointed out, NIJ 
has put out guides to law enforcement in a whole series of 
areas. The idea of, for example, standards on collecting and 
packaging evidence I think are pretty important, particularly 
since these technologies are so sensitive and it is so easy to 
confound investigators by getting extraneous DNA samples on 
pieces of evidence. Everybody here knows that can create real 
problems in the case. So, I think that there is room for 
establishing national standards.
    I think that each jurisdiction is going to be a little bit 
different and they will probably be developing their own 
variations. As long as it is within a certain national standard 
in some of these things, I think it could be helpful.
    Mrs. Maloney. Would anyone else like to comment?
    Mr. Conley. I might volunteer that in the State of Indiana 
a program that has been real successful is we have a State 
statute that assists victims of crime, sexual assault victims 
particularly, by paying for the medical expenses for the 
examinations performed. In order for the hospital to apply 
directly for those funds, a standardized sexual assault 
evidence kit must be used that is approved by a committee of 
the State, including forensic scientists from our State crime 
laboratories. That has been a real successful program I think, 
and that is just one idea I might share with you.
    In regards to the overall concept of evidence collection, 
the accreditation program in the year 2001 added the new 
discipline of crime scene processing, which is an additional 
discipline that accredited laboratories may participate in. I 
think that this is going to go a long way toward causing the 
agencies to create, with guides such as have already been 
mentioned, internal systems of managing how crime scenes are 
processed. There is a history in law enforcement and in field 
investigations that if we write down no rules it is a little 
more difficult to evaluate our weaknesses. It is going to take 
time, it is going to take years, but this is a good start in 
the development of more consistent high quality processing of 
crime scenes.
    Mrs. Maloney. Thank you. Other comments?
    Mr. Asplen. I think that there is an important difference 
between standardization, per se, for example, of a rape kit, 
and minimum standards, particularly when you are dealing with 
jurisdictional specifics. For example, some rape kits are 
equipped with the ability to take blood for blood alcohol 
content. Some jurisdictions do not do that, they do not want to 
do that; however, some consider it important at that stage. So 
I think it is important to understand and to keep in mind the 
distinction between minimum standards around which individual 
jurisdictions can accommodate their own requirements as opposed 
to standardization such as one rape kit which would apply to 
all different jurisdictions.
    Mr. Lawlor. If I could just add something very briefly on 
that. I would agree some type of minimal standard is important, 
but flexibility is crucial because jurisdictions can be very 
different. We did adopt a statewide standard in Connecticut and 
we actually included, as part of the hospital regulatory 
process, that they be required to have a standard operating 
procedure, that the medical professional is required to have 
specialized training in collection of this evidence, not just 
on the scientific side but the human side of dealing with 
victims in that situation. And finally, the most surprising 
thing of all, was we found out that some hospitals in our State 
actually billed the victims for the cost of the collection of 
the evidence as if it were a medical procedure, and we have now 
outlawed that.
    But I think in discussing these procedures you will uncover 
the horror stories that are out there of extraordinary 
insensitivities that take place every day with regard to 
victims of crime, and beginning this discussion only helps 
resolve those problems.
    Mrs. Maloney. I want to thank all of you for your 
thoughtful and excellent testimony today. Thank you.
    Mr. Horn. Let me just ask a few questions and then we will 
wrap it up. What are the privacy policies of these labs? Are 
there any problems in terms of privacy or something?
    Mr. Adams.
    Mr. Adams. Mr. Chairman, first of all, the DNA Act of 1994 
which established the CODIS and the National DNA Index System 
had built into it certain requirements which allow for the 
samples to be imputed into the national system, but done so 
with very limited information; a unique identifier for the 
sample, an identifier for the laboratory that performed the 
analysis, and the identity of the laboratory analyst that did 
the testing. Very limited information. Second, it is limited as 
far as access, only accessible by those laboratories approved 
to perform DNA and enter them into CODIS. And then, third, 
limited as far as accessibility with regard to buildings, they 
are in secure locations.
    We have attempted to adhere to the need for maintaining 
strict compliance with privacy issues. That is at the Federal 
level. Of course, as you are probably familiar, many States 
have enacted confidentiality legislation, I think 46 of the 50 
States, over half of the States have criminal penalties 
associated with improper disclosure. So privacy has been an 
important issue that was also discussed by the Commission on 
DNA as well as the DNA Advisory Board.
    Mr. Horn. Does some of that also include the so-called 
disgruntled employee where they damage some of the samples. 
Have you ever had that in any of the laboratories, and is it 
part of the accreditation system?
    Mr. Adams. I am unfamiliar with that aspect.
    Mr. Horn. Well, Mr. Conley, you have probably----
    Mr. Conley. Well, in terms of the possibility of a 
disgruntled employee doing something that would be damaging to 
a database, certainly I believe in an accredited laboratory 
situation that would not go undiscovered and it would not go 
unaddressed. The data in the form that it is stored in a 
database really does not mean anything to anybody who is 
concerned about the likelihood for somebody to die early of a 
disease or to pass on a genetic defect or something like that. 
This, in and of itself, helps to build in some security.
    In terms of some damage to the database, typically those of 
us who have the responsibility for maintaining State databases 
do maintain, under high security, samples in order to have the 
ability to reconstruct it if necessary in the future. I hope 
that is responsive to your question.
    Mr. Horn. A DNA sample that, say, proved a person could be 
exonerated, what happens to the sample?
    Mr. Conley. It is frequent that we have had hits, certainly 
in our State, where people have been identified after the 
laboratory test has excluded a suspect. Those suspects would 
not meet the definition of our State law, which basically fits 
the Federal regulations and the Federal law, and the profile of 
an innocent person or a person who was excluded could not be 
put into the database. Only forensic samples, unknown samples 
in cases that have not been solved. There have been some case-
to-case hits, obviously, between specimens recovered in 
separate criminal investigations, separate crimes. We recently 
had some in Indiana that were on opposite sides of the State, 
then a suspect was developed in one of the cases and 
successfully charged, at least to this point, in both counties.
    Mr. Horn. Mr. Scheck.
    Mr. Scheck. The issue here is not the CODIS system. You 
have the national computer and you have the State and local 
computers, and there are very strict requirements, as Dwight 
Adams said, for putting those samples in. We put those into the 
1994 act. That is not the problem. If all the State and local 
authorities would live with precisely the CODIS rules, that 
would be fine. But they are not.
    It is a pretty simple matter to extract the DNA profile. 
And what is happening now that State and local authorities have 
the capacity to do their own DNA typing is, let's say--because 
we found out in our national commission that this has 
apparently happened--they take a sample from a rape victim and 
from let's say a husband whose sample was taken for elimination 
purposes, or, what is very frequently happening I believe, the 
police will say to some individual we want your sample for 
elimination purposes because you live in this area or you are 
near a crime scene, right, and we just want it for this case, 
or they suggest it is just for this case, then those samples 
cannot be put into CODIS but they can be put into that State 
and local databank. And those, unfortunately, are not 
regulated, they are not subject to the CODIS rules.
    I think, to the extent that States are not dealing with 
this issue, and lab directors--I will give you a very specific 
example. We have a client in New York, he was exonerated, the 
man I talked to you about before, the case with bite mark 
evidence, they took the saliva stain and then the fingernail 
scraps, they matched them up, he is exonerated, he leaves jail. 
Under our CODIS and State rules, his sample will come back to 
him. But the New York City Medical Examiner's Office has that 
DNA profile and they say I have no authorization to get rid of 
it, we are just going to keep it in our computer. Now that is 
the reaction, unfortunately I think, in all too many places.
    I think that is a terrible mistake because the laboratories 
on this privacy question should be as clean as Caesar's wife, 
otherwise there is going to be an error, there is going to be 
some kind of privacy problem and a lot of people who are very 
concerned and sensitive about this issue are going to come back 
to these very gentlemen who are here asking for money, and I 
support putting money into this, as I have indicated, and they 
are not going to get it because there is going to be this 
problem. And so, really, more attention has to be paid to these 
privacy issues.
    And incidently, it is no longer good enough to say that all 
these STR markers or all these DNA markers are all ``junk 
DNA.'' Well, we sequenced the genome; we realize this junk DNA 
is very meaningful. One of these markers, incidently, THO-1 is 
actually implicated in I think a disease, I may be wrong about 
which one, but I think it is a marker for some form of 
diabetes. So we just cannot say that anymore.
    Mr. Horn. Any comments anybody else wants to make on the 
record? Yes, Mr. Asplen?
    Mr. Asplen. I would agree wholeheartedly that there are 
still a lot of discussions that need to be had over the issue 
of State and local databases and who needs to go in. One 
example that I would give was the dragnet scenario, for 
example, in Ann Arbor, MI, where an individual investigation 
was conducted and blood samples were taken from over 150 
African-Americans. They gave their samples voluntarily. When 
the case was ultimately solved and the real perpetrator was 
identified, when those individuals went back and asked for 
their samples back, that was refused. It was refused because 
law enforcement took the position that they had lawfully 
obtained it. And they had. It was true they had lawfully 
obtained it. However, I would venture to say that the next time 
that the Ann Arbor police department decides to try to enlist 
the voluntary help of its citizens it may find itself in a 
difficult position.
    I go back to the importance of privacy from the standpoint 
of, if we are going to maximize the investigative value of this 
technology, we must do it in a way that engenders the public 
trust along the way.
    Mr. Horn. Well, thank you. Any of you that want to make 
statements, we will be glad to include them in this part of the 
hearing. If you think of something on the airplane or in the 
automobile, gee, I wish I had that idea, just send it in to us 
and we will deal with it.
    I want to thank each of you. It has been a long morning and 
you have all offered some excellent ideas. Hopefully, I think 
we will have that national conference that the Attorney General 
ought to do and get you all in the room again. Thank you for 
coming.
    I am going to now thank the staff for their help. Mrs. 
Maloney had a number of staff members I believe for the 
minority staff. Of course, Michelle Ash, professional staff; 
Jean Gosa, minority clerk. If you have anybody else that helped 
with this hearing, put them on the list. We thank you all.
    And then for the majority staff, J. Russell George, staff 
director/chief counsel for the subcommittee; Bonnie Heald, to 
my immediate left, the professional staff member that put this 
together and is also director of communications; Scott Fagan, 
assistant to the subcommittee; Chris Barkley, staff assistant; 
interns Alex Hurowitz, Ryan Sullivan, and Fariha Khaliq. And 
not the end of it all but she is here always from beginning to 
end, and that is the court reporter, Geri Lyda. We thank you, 
Geri, again. This was a long day for you.
    With that, we are adjourned.
    [Whereupon, at 1 p.m., the subcommittee was adjourned, to 
reconvene at the call of the Chair.]


</pre></body></html>
